                                                 Office of Inspector General
                                                      Office of Investigations
                                                   U.S. Department of the Interior

                                                    Report of Investigation
Case Title                                                       Case Number
     Myers, William G., III                                            PI-NM-03-0309-I
                                                                 Related File(s)  None
Case Location                                                    Report Date
     Washington, D.C.                                                   November 24, 2003
Report Subject
     Report of Investigation


SYNOPSIS

On August 20, 2003, the Office of Inspector General (OIG), U.S. Department of the Interior (DOI),
initiated an investigation of William G. Myers, III, Solicitor, DOI, regarding his alleged inappropriate
contacts with his former employer Holland and Hart, LLP (H&H), current clients of H&H, and his former
personal clients while at H&H.

Our investigation began after we received a written request for an inquiry on August 15, 2003, from the
Office of Government Ethics (OGE), stating that it had received a complaint on August 5, 2003, from
Public Employees for Environmental Responsibility (PEER) and Friends of the Earth (FOE). The
complaint alleged that the Solicitor may have “violated his ethics agreement and 18 U.S.C. §208, the
criminal conflict of interest law,” through his participation in a series of 27 meetings held between August
29, 2001, and December 18, 2002. PEER and FOE learned of these meetings after reviewing Myers’
appointment calendar, which they obtained through a Freedom of Information Act request.

According to OGE, the information it received from PEER and FOE did “not provide a basis to conclude
that Mr. Myers violated his ethics agreement or any ethics laws or regulations.” However, OGE stated
that the information did raise “a number of legal questions that cannot be resolved without additional
information.” OGE therefore requested that an investigation ascertain the specifics of the discussions that
took place during each of these 27 meetings in order to determine if Myers had actually violated the terms
of his ethics agreement or the criminal conflict of interest law.

In a second letter to OGE dated October 2, 2003, PEER and FOE made additional allegations against
Myers. In this letter, PEER and FOE identified three contacts that Myers had with the National Mining
Association, which they alleged was a former client of Myers, which occurred between July 30, 2001, and

Reporting Official/Title                                          Signature

Approving Official/Title                                          Signature
    David A. Montoya/AIG for Investigations

Distribution:   Original – Case File   Copy - SAC/SIU Office   Copy – HQ   Other:
                                                                          Case Number: PI-NM-03-0309-I

October 19, 2001. OGE referred this letter to the OIG, and these matters were also addressed by this
investigation.

During the course of our investigation, we conducted over 40 interviews at various locations throughout
the United States. In addition, we obtained and reviewed hundreds of documents, including e-mail
messages maintained by the Office of the Solicitor (SOL). We also obtained and reviewed documents
stored on Myers’ personal DOI computer.

The investigation developed specific information concerning each of the 30 questioned meetings and
contacts identified by PEER and FOE. We also discovered and examined seven additional contacts
between Myers and employees of H&H, which occurred between October 5, 2001, and July 2003, which
were not identified in the letters to OGE from PEER and FOE.

We have reviewed the facts of this investigation with the Public Integrity Section of the Criminal
Division, U.S. Department of Justice (DOJ), which concurred with our determination to refer this matter
back to OGE for a determination of any potential ethics violations. The results of this investigation are
therefore being referred to OGE for its review and determination.

Details of Investigation

NOTE: For the convenience of the reader, at the end of the report, we have provided an index of all
attachments, acronyms, and names of individuals mentioned in the report. Several other visual aids are
also provided throughout the report.

Our investigation disclosed that Myers was employed Of Counsel by the law firm of H&H, in Boise,
Idaho, from August 1997 through July 12, 2001, when he was confirmed as DOI Solicitor by the United
States Senate. Myers assumed the position of Solicitor on July 23, 2001. As Solicitor, Myers supervised
approximately 315 attorneys and 100 support staff in 19 SOL offices throughout the United States.

A review of Myers’ ethics file identified a May 1, 2001 letter from Myers to Wendell Sutton, then Deputy
Assistant Secretary for Human Resources and Designated Agency Ethics Official, DOI. In this letter,
Myers wrote that, pursuant to 18 U.S.C. §208(a), he would “not participate personally and substantially in
any particular matter that has a direct and predictable effect on [his] financial interests or those of any
other person whose interests are imputed to [him].” Myers also wrote that, pursuant to 5 C.F.R.
§2635.502, for a period of one year after he terminated his position from H&H, he would “not participate
in any particular matter involving specific parties in which [he knew] that Holland and Hart, LLP, is a
party or represents a party, unless [he was] authorized to participate.” OGE confirmed to us in the referral
that because Myers was confirmed by the Senate on July 12, 2001, his recusal obligation therefore expired
one year later, on July 12, 2002.

Myers further wrote that with respect to clients for whom he provided legal services, for a period of one
year from his last representational activity on behalf of a client, he would “not participate in any particular
matter involving specific parties in which [he knew] that any one of them is a party or represents a party,
unless [he was] authorized to participate.” In addition, Myers wrote that once he was confirmed as
Solicitor, he would not participate “personally and substantially in [his] official capacity in any of the
specific cases and other specific matters that [he] handled” while employed Of Counsel at H&H. See
Figure 1.


                                                       2
                                                                     Case Number: PI-NM-03-0309-I

                                               Figure 1




When Myers was interviewed, he was shown the May 1, 2001 letter. After reviewing it, Myers stated that
he recalled preparing this letter with assistance from the DOI Ethics Office. He also stated that the
signature on it was his own.

A review of Myers’ ethics file also identified a “Statement of Disqualification From Matters Involving
His Former Employer” signed by Myers on July 30, 2001. This statement contained language similar to
Myers’ May 1, 2001 letter to Wendell Sutton concerning his recusal from matters involving H&H. The
review further identified a “Statement of Disqualification From Matters That Create An Appearance Of
Conflict.” In this document, which was also signed by Myers on July 30, 2001, Myers wrote that he had
resigned from his position as the Chairman of the State Affairs and Natural Resources Committee of the
Boise Area Chamber of Commerce in Boise, Idaho, and would not participate in any particular matter
involving specific parties in which he knows that this organization is a party.



                                                   3
 Information has been redacted pursuant to FOIA
 exemptions 6 & 7C.                                                    Case Number: PI-NM-03-0309-I

When interviewed, Myers was shown both of these documents. After reviewing each of them, he stated
that he recalled preparing them with assistance from the DOI Ethics Office. Myers stated that the
signature on each of these documents was his own.

During an interview with [name redacted and referred to as the “EA”] Myers’ Executive Assistant (EA),
he stated that he is responsible for maintaining his appointment calendar and has the ability to add or
delete items from it. A few other employees in the SOL can view the calendar but they cannot make
changes to it. The EA stated that he is generally responsible for making entries on this calendar. He
noted that on some occasions, Myers does not attend events that are shown on his calendar. He said that
if Myers does not attend a particular meeting or event shown on his calendar, it is not erased or deleted
from the calendar. The EA also said that he is responsible for “screening” meeting requests received by
Myers. As a result, he said not every person who requests a meeting with Myers receives one.

During an interview of Myers, he confirmed that the EA has the authority to schedule meetings without
his knowledge or input.

Nine Meetings Within the One-Year Recusal Period

Only nine of the 27 meetings identified in the OGE referral letter dated August 15, 2003, occurred within
Myers’ one-year recusal period.

These nine meetings are identified in Figure 2:

                                                  Figure 2




                                                     4
    Information has been redacted pursuant to FOIA
    exemptions 6 & 7C.                                                               Case Number: PI-NM-03-0309-I

Through interviews and document reviews, we developed the following information concerning each of
these nine meetings. As we investigated each of these meetings and all other meetings and contacts, we
compared and contrasted the recollection of attendees to ensure that we had a full and accurate
understanding of each meeting’s content and purpose.

1. August 29, 2001: Meeting with Attorney from the California Farm Bureau Federation

A review of Myers’ appointment calendar disclosed that on August 29, 2001, from 1:00 p.m. to 1:30 p.m.,
he was scheduled to meet with [name redacted and referred to as “the attorney” or the “CFBF attorney”]
in his office.

According to the PEER and FOE letter to OGE dated August 5, 2003, the attorney represents the
California Farm Bureau Federation (CFBF).

A review of H&H billing records disclosed that the CFBF was not a client of Myers while he was
employed by H&H.1

According to [name redacted and referred to as “Partner A”], H&H, Denver, Colorado, the CFBF was
also not an H&H client between January 2000 and September 2003.

Sue Ellen Wooldridge, Deputy Chief of Staff, DOI, was interviewed and stated that on July 11, 2001, she
and Myers interviewed the CFBF attorney by telephone for potential employment within the SOL.
During this discussion, Myers was in Idaho, the CFBF attorney was in California, and Wooldridge was in
Washington, D.C. According to Wooldridge, at the time of this interview, the attorney was employed by
the CFBF and Myers had not yet been confirmed as Solicitor.

A review of e-mail messages maintained by the SOL identified a July 11, 2001 e-mail message from
Myers that substantiated Wooldridge’s recollection concerning this telephone interview of the CFBF
attorney. This review also identified a May 29, 2001 e-mail message between Bennett Raley, Assistant
Secretary for Water and Science, and Myers, in which Myers wrote that he wanted to interview the CFBF
attorney “face-to-face.”

When interviewed, Wooldridge recalled that on August 29, 2001, she conducted a second interview of the
CFBF attorney. This interview was held in her office at DOI, and Myers was not present. Wooldridge
stated that the discussion at this interview solely concerned the CFBF attorney’s potential employment at
DOI. Wooldridge recalled that Myers had met with the CFBF attorney earlier in the day, also for the
purpose of discussing employment.

A review of documents maintained by the SOL disclosed that the CFBF attorney had provided a resume
to DOI and that Myers reviewed this resume. The review also disclosed that in May 2001, Myers
expressed an interest in interviewing the attorney for possible employment within the SOL.

The CFBF attorney was interviewed and stated that although he could not recall meeting with Wooldridge
on August 29, 2001, he did recall meeting with Myers. The attorney stated that his meeting with Myers
solely concerned his potential employment with DOI and “absolutely” no CFBF business was discussed.


1
 Neither these nor any other H&H billing records referred to in this report are provided as attachments because of the
proprietary nature of these documents.
                                                               5
 Information has been redacted pursuant to FOIA
 exemptions 6 & 7C.                                                      Case Number: PI-NM-03-0309-I

According to Myers, at the time of his meeting with him, the CFBF attorney was being considered for one
of the Associate Solicitor positions within the SOL. Myers stated that he had not previously met the
attorney, and his name had been provided to DOI with a number of others to be considered for these
positions. Although he could not recall the specific date of his personal interview of him, he stated that it
was likely conducted on the same day that Wooldridge also independently interviewed him. Myers
recalled that he was anxious to fill the position for which the attorney was being considered. He also said
that this was the only time that he has ever met the attorney in person. Myers did not recall participating
in the July 11, 2001 interview of the attorney with Wooldridge by telephone. Myers said that no CFBF
business was discussed during his meeting with the attorney and that the discussion focused solely on his
potential employment.

2. October 4, 2001: H&H Reception

A review of Myers’ appointment calendar disclosed that on October 4, 2001, between 4:45 p.m. and 7:30
p.m., he was scheduled to attend a reception hosted by H&H at the Hay Adams Hotel in Washington,
D.C.

Partner A, H&H, Denver, Colorado, was interviewed and stated that H&H sponsored a reception to honor
Myers and Tom Sansonetti, who was also an H&H employee and who had been nominated to serve as the
Assistant Attorney General for the Environment and Natural Resources Division at the DOJ. Partner A
explained that both Myers and Sansonetti had been appointed to “positions of prominence” and that the
firm was “very proud of them.” The reception was held to honor them both. Partner A stated that
invitations were sent to H&H clients in Washington, D.C., and elsewhere. He said that approximately
150 people attended the event. Partner A spoke at the event and commended both Myers and Sansonetti
for their accomplishments.

Partner A stated that the invitation for the reception had been screened by the DOI Ethics Office. Partner
A recalled that he worked with the H&H staff to develop the invitation and then sent a draft version of it
by e-mail to Myers for his review. Myers then took the invitation to the DOI Ethics Office for its review
and approval. Partner A recalled that the DOI Ethics Office suggested a minor change in the wording of
the invitation. This change was incorporated in the final version. Partner A stated that although he did
speak to Myers that evening, he did not discuss any business matters or any matter pending before H&H
or DOI with him.

A review of documents maintained by H&H identified an October 8, 2001 e-mail message from Partner A
to all H&H employees. This message was sent by Partner A on the Monday following the reception and
described the event as being a success.

A review of Myers’ DOI ethics file confirmed the statements of Partner A concerning the involvement of
the DOI Ethics Office in the invitation process. Specifically, this review identified July 13, 2001 e-mail
messages between the Business Development Coordinator (the Coordinator), H&H, Denver, Colorado,
Mary A. Braden of DOJ, and T.J. Sullivan, who was at that time the Alternate Designated Agency Ethics
Official at DOI. The message from the Coordinator requests that Braden and Sullivan review and
approve the text of the invitation to the reception.

[Name redacted and referred to as “The Coordinator”] was interviewed and stated that as the Business
Development Coordinator at H&H, he was responsible for organizing the reception for Sansonetti and
Myers. The Coordinator stated that both Sansonetti and Myers were “very proactive” in ensuring that this
event was approved by their respective Ethics Offices. The Coordinator stated that several attorneys
                                                      6
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.                                                     Case Number: PI-NM-03-0309-I

within H&H also suggested to him that the event be approved by the DOJ and DOI Ethics Offices. The
Coordinator recalled that he obtained T.J. Sullivan’s name and telephone number from either Myers or the
EA. He then telephoned Sullivan to introduce himself and discuss the event. The Coordinator was shown
the July 13, 2001 e-mail message he sent to Braden and Sullivan. After reviewing it, The Coordinator
stated that he recalled sending this message after either Braden or Sullivan suggested “minor revisions” to
the wording of the invitation. The Coordinator recalled that these revisions were required because
Sansonetti had not yet been confirmed, even though Myers had been. The Coordinator stated that both
DOJ and DOI approved the wording in the final version of the invitation. The Coordinator stated that
although he could not recall a specific discussion or communication he had with Sullivan in which
Sullivan approved Myers’ attendance at the reception, he did know that the DOI Ethics Office had
approved the event and his participation in it.

A review of documents maintained by H&H identified a hand-written note prepared by the Coordinator
where he had recorded Sullivan’s name, telephone number, and e-mail address. The Coordinator stated
that he prepared this document when he first became involved in organizing the event. This review also
identified a copy of the final invitation issued by H&H.

[Name redacted and referred to as “Partner B,”] H&H, Cheyenne, Wyoming, was interviewed and stated
that he attended the reception for Myers and Sansonetti at the Hay Adams Hotel on October 4, 2001. The
reception was hosted and paid for by H&H, and was attended by H&H attorneys, H&H clients, and
friends of Myers and Sansonetti. Partner B recalled that DOI Deputy Secretary Steve Griles also attended
the reception. Partner B was unable to specifically recall if any other DOI officials attended. Partner B
stated that Vice President Cheney was at the reception for approximately 15 or 20 minutes to swear Myers
in. Sansonetti had not yet been confirmed by the Senate and therefore was not sworn in. Partner B
recalled that after the swearing in, Myers briefly addressed the attendees and thanked them for their
support. A photo was taken of Myers with Vice President Cheney, and it was later given to Myers by
H&H.

[Name redacted and referred to as “Partner C,”] H&H, Boise, Idaho, was interviewed and stated that he
also attended the reception for Myers and Sansonetti at the Hay Adams Hotel. Partner C described this
event as a “goodbye reception” for both men. Partner C said that a ceremonial swearing in was also held
for Myers at this event. Partner C stated that he could not recall discussing any business issues with
Myers that evening.

[Name redacted and referred to as “Partner D,”] H&H, was interviewed and stated that he also attended
the October 4, 2001 reception for Sansonetti and Myers. Partner D stated that the reception was held in
order for H&H to honor two former H&H employees who had taken “very impressive” jobs in
Washington, D.C. Partner D stated that to the best of his knowledge, no one discussed any business
matters with Myers that evening. Partner D explained that this was “not the type of event” at which such
discussions should take place.

Matthew J. McKeown, former Special Assistant to the Solicitor and now the Associate Solicitor for Land
and Water, SOL, was interviewed and stated that he also attended the reception. McKeown recalled that
H&H officials, political appointees, and congressional staffers from Wyoming, Idaho, and elsewhere
attended the event. McKeown could not recall if any other DOI officials attended. McKeown stated he
was at the event for approximately one and a half hours and spoke to Myers only briefly. McKeown
stated that, based on his observations that evening, he had no reason to believe that Myers discussed any
business matters or any matter pending before H&H or DOI.

                                                     7
 Information has been redacted pursuant to FOIA
 exemptions 6 & 7C.
                                                                        Case Number: PI-NM-03-0309-I

[Name redacted and referred to as an “attendee”] was interviewed and stated that in October 2001, he was
employed in various positions with the Public Lands Council (PLC) and the Federal Lands for the
National Cattlemen’s Beef Association (NCBA). The PLC is a division of the NCBA. He recalled that
he attended the reception held for Myers at the Hay Adams hotel in early October 2001. He stated that he
was invited to attend the reception after providing background information needed for security purposes
for persons attending the reception on behalf of the NCBA. He explained that security at the event was
heightened because Vice President Cheney attended in order to swear in Myers. The attendee recalled
that the Vice President spoke briefly, as did Myers. The attendee stated that he had no reason to believe
that anyone from the PLC, NCBA, or any other organization spoke to or lobbied Myers on business
matters during the course of the evening. According to the attendee, it would have been inappropriate to
do so at such an event.

Myers stated that discussions concerning this reception first began while he was still at H&H in Boise.
Myers said that he suggested to the H&H Coordinator and others of H&H that they should consult with
the DOI Ethics Office prior to finalizing plans for the reception. Myers stated that he “wanted to be sure
that the reception was appropriate and ethical.” Myers recalled that the DOI Ethics Office advised him
that the theme of the reception should be “farewell from H&H” and not “welcome to the government.”

Shayla Simmons, Designated Agency Ethics Official, DOI, was interviewed and stated that she was not
the Designated Agency Ethics Official at the time of the H&H reception for Myers. However, she stated
that she has conducted a review of Myers’ ethics file and has determined that it did not include an
“Acceptance of Free Attendance at Widely-Attended Events” form (Form DI-1958) for this reception.
Simmons stated that after determining this, she discussed the matter with Timothy Elliott of the SOL.
During their discussion, Elliott advised her that at the time of this event, the DOI Ethics Office and the
DOJ Ethics Office jointly determined that it was not necessary for this form to be completed in
connection with Myers’ attendance at the reception.

Myers stated that he had no recollection of anyone ever discussing with him the need to complete a DI-
1958 in connection with his attendance at this event. He also stated that if it had been necessary to
complete such a form, the DOI Ethics Office should have advised him of such.

3. October 5, 2001: Meeting with H&H Attorneys

A review of Myers’ appointment calendar disclosed that on October 5, 2001, between 9:00 a.m. and 10:00
a.m., Myers was scheduled to meet with H&H attorneys Partner A, Partner B, and Partner C in his office.
The meeting was described in Myers’ calendar as a “hello from H&H.”

When Partner A was interviewed, he stated that he, Partner B, and Partner C, along with Partner D and
Partner E, an H&H partner in the Boise, Idaho, office, met with Myers on the morning of October 5,
2001. Partner A said [name redacted and referred to as “an attorney” with] H&H’s Washington, D.C.,
office, who had organized the previous evening’s reception, also attended. Partner A said this meeting
was arranged sometime prior to the reception held the preceding evening, but Partner A did not know who
had arranged it.

According to Partner A, this meeting was arranged in order for him and the other H&H employees to see
Myers’ office and to get an “inside tour” of DOI. After meeting with Myers for a short time and seeing
his office area, Myers showed them the Solicitor’s conference room, where photos of previous DOI
Solicitors are displayed. Partner A noted that two other former H&H employees, Greg Austin and Tom
Sansonetti, had served as DOI Solicitors. Myers then took the group to see the office of DOI Secretary
                                                     8
 Information has been redacted pursuant to FOIA
 exemptions 6 & 7C.
                                                                        Case Number: PI-NM-03-0309-I

Gale Norton. Although Norton was not in the office at the time they arrived, she did arrive shortly
thereafter and Myers introduced them to her. Partner A stated that the meeting with Norton was not pre-
arranged, and instead happened by coincidence. In fact, he stated, they were not scheduled to meet with
any other DOI officials, and he did not recall doing so during their time there. Partner A stated that this
was “not a meet and greet” arranged to gain access to DOI officials but was instead a time to celebrate
Myers’ new position.

After leaving Norton’s office, Myers turned the group over to a tour guide from the DOI Museum, who
then showed the group the museum, murals, and other DOI attractions. Myers did not attend this portion
of the tour. At the conclusion of the tour, the group left the building and did not meet again with Myers.
Partner A stated that although he did speak to Myers during the tour, he did not discuss any business
matters or any H&H matter pending before H&H or DOI.

Partner A said that in his dealing with Myers, he was “very careful” and “very guarded” about the issues
he discussed with him. For example, said Partner A, Myers was the one who suggested that the
invitations to his October 4, 2001 reception be reviewed by the DOI Ethics Office. Partner A stated that
Myers always wanted to be certain that he was “on the right side” of these issues.

A review of DOI building security logs disclosed that the six H&H attorneys signed into the Main Interior
Building at 9:03 a.m. on October 5, 2001.

Partner B stated that he, too, visited Myers’ office on the morning after the reception. Partner B’s
recollection of events was consistent with Partner A’s. Partner B estimated that the group was at DOI for
approximately 60 to 90 minutes, and about half of that time was spent with Myers. Some of their time at
DOI was spent discussing the events of September 11, 2001, which had occurred less than one month
earlier. The remaining time was spent with the museum tour guide. Partner B stated that while in
Secretary Norton’s office, he was admiring a picture when the Secretary entered the office and “almost
knocked [him] over” with the door. Partner B stated that he was surprised by the opening of the door and
Secretary Norton was equally surprised to find someone in her office. After introducing themselves to the
Secretary, they left her office. Partner B stated that “no business talk” took place with Myers, Secretary
Norton, or others while they were at DOI.

When questioned concerning the purpose of their visit, Partner B explained that the visit involved “a
group of friends and colleagues” who were “seeing the changed circumstances” of another. Partner B
stated that Myers wanted to show his former co-workers his new office situation. Partner B stated that
neither he nor anyone else on the tour used the circumstances to make any contact with other DOI
officials. Partner B noted that he knew several DOI officials, including Bob Comer of the SOL and R.M.
“Johnnie” Burton, the Director of the Minerals Management Service (MMS); however, he saw neither of
them while he was there.

Partner C was also present for this visit and stated that he was responsible for organizing it. According to
Partner C, Sansonetti had suggested to him at an H&H partnership meeting in Vail, Colorado, that the
best way to meet federal officials and “learn how business works” was to schedule a tour of their
particular building. Sansonetti explained to Partner C that touring a building and meeting officials would
allow the visitors to learn the specific divisions and offices in a particular federal agency and their
respective areas of responsibility. In addition, a tour would present the opportunity to meet with some
officials in person, which could help facilitate future contacts with these officials. Acting upon
Sansonetti’s advice, Partner C contacted the EA in late September 2001 and scheduled the tour. Partner C
stated that the tour was also a chance to visit with Myers and meet his EA.
                                                     9
Information has been redacted pursuant to
FOIA exemptions 6 & 7C.                                                 Case Number: PI-NM-03-0309-I


Partner C said that after arriving at DOI, he and the others in his group met with Myers, who showed
them his office and the SOL conference room. Partner C specifically recalled that while in his office,
Myers looked at his watch and then suggested to the group that they had time to see Secretary Norton’s
office prior to her arrival. Myers then led the group down the hall to the Secretary’s office, where they
were “appropriately awed.” Partner C recalled that the group also went out on the balcony outside of her
office. As they were concluding the office visit, Myers again looked at his watch and advised the group
that they needed to leave because the Secretary would soon be arriving. At that very moment, Secretary
Norton came into her office. Partner C stated that the group introduced themselves to Norton, spoke
briefly with her, and then returned to Myers’ office. At that point, Myers turned the group over to a DOI
museum curator, who took them on a tour of the rest of the Main Interior Building. Partner C stated that
even though the group spent over one hour “walking the different wings” of the Main Interior Building,
they met no other DOI officials. Partner C stated that he did not discuss any business issues with Myers
or Secretary Norton, and to the best of his knowledge no one else in the group did either.

Partner C noted that on the afternoon of October 5, 2001, he and the other H&H representatives also
toured the DOJ building. Because Sansonetti had not yet been confirmed, they met with Sansonetti’s
future Deputy. Partner C said that their visit to DOJ included a tour of the DOJ library and auditorium.

A review of a series of e-mail messages maintained by H&H confirmed Partner C’s recollection
concerning the scheduling of the meeting with Myers. This review further disclosed that the meeting was
scheduled on September 26, 2001, with the knowledge of Myers.

The recollection of Partner D concerning these events was consistent with those of Partners A, B, and C.
Partner D stated that he did not discuss any business matters with Myers during the course of his visit and
he was confident that no one else did.

When Myers was interviewed, he stated that on the morning after the reception at the Hay Adams hotel, a
number of H&H employees visited him at DOI to see his office and tour the Main Interior Building.
Myers said that although the H&H employees were the ones who requested the tour, he was “happy to
accommodate them.” Myers recalled that after showing these individuals his office, he took them to see
Secretary Norton’s office, knowing that she was not yet present. Myers said that if the Secretary was
present, he would not have taken them to see her office. Myers recalled that Secretary Norton
unexpectedly entered her office as the group was leaving it, and he then introduced the H&H attorneys to
her. Myers said that she was the only other DOI official with whom they met that morning. The H&H
attorneys subsequently were given a tour of the Main Interior Building by a DOI staff member. Myers
said that this was a standard, guided tour of the Main Interior Building that is given to anyone making a
pre-arranged request for it. Myers did not participate in this tour. Myers stated that no business matters
were discussed with the H&H employees that morning.

4. October 5, 2001: Meeting with H&H Attorney with EOG Resources

A review of Myers’ appointment calendar disclosed that on October 5, 2001, between 12:30 and 12:45
p.m., Myers was scheduled to meet with Partner B of H&H and representatives of EOG Resources Inc.
(EOG), an energy production company.

A review of H&H billing records disclosed that EOG was not a client of Myers while he was at H&H.


                                                    10
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.                                                     Case Number: PI-NM-03-0309-I

When Partner B was interviewed, he confirmed that he did meet with DOI officials and representatives of
EOG on the afternoon of October 5, 2001. EOG was a client of Partner B’s and H&H. Partner B recalled
that he scheduled the meeting by telephone through the EA. During the course of their telephone
discussion, the EA requested that Partner B fax him a list of the meeting attendees and the topics for
discussion, and Partner B did so on September 26, 2001. Partner B provided a copy of this document.

The interview of Partner B and a review of this faxed document disclosed that [name redacted and
referred to as “an attorney at EOG”] from Houston, Texas; [name redacted and referred to as “an
attorney”] for EOG North America from Denver, Colorado; [name redacted and referred to as “an
attorney” with] a Washington, D.C., law firm; and Partner B represented EOG at the meeting. Partner B
noted that one of the attorneys was a former DOI employee who has a substantial background in energy
work. According to the agenda and Partner B, the meeting with Myers was requested so that EOG could
discuss the Bush Administration’s energy and royalty policies. In the agenda, Partner B wrote that H&H
is not involved in any pending cases for EOG before DOI or the Interior Board of Land Appeals. Partner
B stated that the agenda is the only document associated with this meeting.

Partner B’s recollection of the timing of the scheduling of this meeting was confirmed by a September 25,
2001 e-mail message from Partner B to Partners A and C. In this e-mail, Partner B wrote that he had “set
up a meeting with Bill at 1:30 with an official of EOG Resources and a couple of other lawyers from EOG
and the outside.” Partner B’s message was apparently written in response to one he had received earlier
that day from Partner C.

A review of DOI building security logs confirmed that two attorneys with EOG resources, an attorney
with a Washington, DC law firm, and Partner B signed into the MIB at 1:21 p.m. on October 5, 2001.

According to Partner B, after he and the others arrived at DOI and signed into the building, they
assembled in a small conference room near Myers’ office. Shortly thereafter, Myers entered the room and
introduced himself to each of the EOG representatives and shook their hands. Myers then left the room,
and McKeown and Geoffrey Heath of the SOL entered. Partner B said that Myers had asked McKeown
to run the meeting. No other persons attended the meeting.

Partner B explained that he knew in advance based upon his knowledge and understanding of Myers’
ethics agreement that Myers would be precluded from meeting with any H&H attorney or their clients. In
fact, Partner B stated, prior to arriving at DOI, he told the EOG representatives that although they would
meet with SOL representatives, they could not meet with Myers himself due to Myers’ ethics agreement.
Therefore, they knew that they would not be meeting with Myers. Partner B noted that both attorneys
from EOG Resources had been at the H&H reception held for Myers the previous evening and Myers had
met them at that time. However, to the best of Partner B’s knowledge, neither of the EOG attorneys
discussed any business matters or other issues involving DOI with Myers at the reception.

With respect to his knowledge and understanding of Myers’ ethics agreement, Partner B stated that he has
never actually seen the written version of this agreement. However, prior to the time that Myers left
H&H, Partner B participated in “extensive discussions” both within H&H and with Myers concerning the
“ethical boundaries” in which Myers had to remain. Partner B specifically recalled that Myers told him
that for a period of one year from the time he took the job of Solicitor, other than for social or courtesy
meeting purposes, he was precluded from participating in any meeting that involved DOI and H&H.
Partner B said that the firm was careful to abide by these restrictions in order to keep both the firm and
Myers “out of trouble.” Partner B said that it was his understanding, based on these discussions that
Myers’ ethics agreement required that he have no substantive discussions that concerned H&H or clients
                                                    11
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                       Case Number: PI-NM-03-0309-I

of H&H. Partner B stated that although these discussions were never reduced to writing, they may have
been circulated within the Natural Resources division at H&H by e-mail or perhaps verbally. Partner B
stated that Myers was “extraordinarily” concerned about what he could and could not do. According to
Partner B, Myers was “very formal,” and “consciously” kept him and other H&H employees “at arm’s
length out of respect for his ethical agreements.”

Partner B stated that he and the other EOG representatives met with Heath and McKeown for
approximately 30 to 45 minutes, during which time they discussed energy policies and royalty issues.
Partner B characterized the discussion as being “really general,” in part because EOG had no cases
pending before DOI. Partner B said that EOG officials wanted to get some sense as to where the Bush
Administration would be heading with its energy and royalty policies. The topic of non-arm’s length
sales was also discussed.

At the conclusion of the meeting, Partner B and the EOG representatives left DOI without seeing Myers.
Partner B was aware of no follow-up meetings, discussions, or communications concerning this meeting.

Geoffrey Heath of the Division of Mineral Resources, SOL, was interviewed and stated that he recalled
attending this meeting, although he was unable to recall the date of it. Heath recalled that two attorneys
from EOG Resources, and an attorney from a Washington, DC law firm attended the meeting, and he
vaguely recalled McKeown attending it. Heath stated that he was certain that Myers did not attend this
meeting. Heath explained that the Solicitor rarely attends meetings dealing with royalty issues, and if
Myers had attended this meeting he would have recalled him being there. Heath stated that he also had no
recollection of Myers being present for any pre-meeting session with the EOG representatives.

[Name redacted and referred to as “An attorney with a Washington, D.C. law firm”] was interviewed and
stated that he recalled attending this meeting with Partner B and EOG officials. The attorney stated that
he specifically recalled that prior to the time the meeting began, Myers entered the meeting room,
introduced himself, shook hands with all present, and then stated that he would not be attending the
meeting and that Matt McKeown, Myers’ Special Assistant, would attend instead. The attorney stated
that Myers did not state or give a reason as to why it was that he would not be attending.

When McKeown was interviewed, he reviewed his appointment calendar and confirmed that he did meet
with representatives of EOG on October 5, 2001. The calendar entry indicated that the meeting lasted one
hour. McKeown stated that at the time of the meeting, the SOL’s Division of Mineral Resources had no
political appointee, and thus Heath was the highest-ranking official in the Division. Although McKeown
did recall that Partner B was present during the meeting, he did not recall the names of the two attorneys
from EOG Resources, or the attorney from the Washington, DC law firm. McKeown noted that he
attended many meetings such as this during this time period, and thus it was difficult for him to recall
names and faces. McKeown said that he knew that Myers would not be attending the meeting because he
had agreed not to meet with H&H representatives. McKeown stated that he was not present when Myers
may have introduced himself to the EOG officials. McKeown also did not know how the meeting was
arranged or if there was a written agenda for it.

According to McKeown, during the course of the meeting, which was held in the SOL conference room,
the EOG representatives discussed qui tam cases and the role of the United States in those cases.
McKeown stated that the EOG officials were there to “take his temperature.” At the conclusion of the
meeting, McKeown asked EOG to provide additional information to him, which it never did. As a result,
McKeown said, there were no follow-up meetings or communications concerning this meeting.

                                                    12
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                        Case Number: PI-NM-03-0309-I

McKeown stated that it was not unusual for him to be asked by Myers to participate in a meeting in which
Myers could not participate due to his ethics agreement. In fact, McKeown estimated that this
circumstance occurred once per month during the early part of Myers’ tenure. For example, McKeown
once met a group of Idaho ranchers with whom Myers had previously had a client relationship. He also
recalled attending a meeting involving the Federal Energy Regulatory Commission on issues involving
Oregon. He has also been involved in issues involving coalbed methane gas, from which Myers is
recused. McKeown stated that he has never discussed any of these issues with Myers.

Myers, when interviewed, recalled that Partner B and someone from EOG attended this meeting, but he
did not recall the attorney from the Washington, DC law firm being present. Myers stated that because of
his affiliation with H&H, he did not want to attend this meeting and therefore requested McKeown to
attend in his place. Myers noted that Fred Ferguson, the Associate Solicitor for Mineral Resources, was
not yet at DOI and therefore McKeown attended for him. Myers recalled that when the EOG
representatives arrived in his office, he did greet them and they engaged in “chat and small talk.” Myers
stated that because Partner B was a former colleague of his, he met with Partner B and his clients as a
“courtesy.” Myers said that after McKeown arrived, the group left his office to conduct their meeting and
he did not attend. He did not remember exactly where the meeting was held. Myers said he did not
discuss the meeting with McKeown either before or after it was held and he took no action as a result of
the meeting. Myers noted that “to this day,” he does not know what EOG is or does. Myers was shown
the September 26, 2001 fax from Partner B, which was addressed to him requesting the meeting. After
reviewing it, Myers stated that he had no recollection of ever receiving it. Myers stated that it was likely
that the EA received the fax and scheduled the meeting without showing it to him.

5. October 30, 2001: Meeting with Arizona Cattle Growers’ Association

A review of Myers’ appointment calendar disclosed that on October 30, 2001, between 12:00 p.m. and
1:00 p.m., Myers was scheduled to meet in his office with [name redacted and referred to as “a
representative”] of the Arizona Cattle Growers’ Association (ACGA), along with [names redacted and
referred to as “two Arizona ranchers and two former PLC employees.”] The subject of the meeting was
“ESA/grazing.” Our investigation revealed that the DOI participants at this meeting were Myers,
McKeown, Pete Raynor, and Ann Klee.

Myers stated that ACGA was a client of his while he was at H&H. Myers explained that he represented
the ACGA in a matter involving the Clean Water Act (CWA) in Oregon. Myers stated that in August of
2003, he contacted H&H, who advised him that he (Myers) last did work for the ACGA in 1999.

A review of H&H billing records confirmed that the ACGA was a client of Myers while he was at H&H.

[Name redacted and referred to as an “Attorney-Advisor,”] Division of General Law, SOL, was
interviewed and stated that in August 2003, he was advised by Myers that the ACGA and their
representative had, in fact, been a client of his at H&H. Myers also told the Attorney Advisor that he had
contacted H&H and had been advised that he had last billed the ACGA on January 13, 1999.

Partner A of H&H confirmed that Myers last billed the ACGA in January 1999.

When one individual, formerly of the Public Lands Council, was interviewed, he stated that he attended
several meetings at DOI in the fall of 2001 concerning potential revisions to the Bureau of Land
Management’s (BLM) grazing policies. However, the individual said only one of these meetings was
attended by Myers. The individual stated that this meeting may have been held on October 30, 2001, and
                                                     13
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                        Case Number: PI-NM-03-0309-I

was attended by several representatives of the ACGA. Although he had no specific recollection of doing
so, the individual stated that it was likely that he had scheduled this meeting at the request of a PLC
official through Myers’ EA.

Although the individual could not recall the room in which the meeting was held, he did recall that it was
at the Main Interior Building. The individual specifically recalled that a representative of the ACGA
attended the meeting, but had only a vague recollection of the two Arizona ranchers attending. The
individual explained that the ACGA representative was the leader of the Arizona group. The individual
could not recall Raynor or McKeown of the SOL attending and was not certain if Klee of DOI attended.
He also did not recall a representative from a Senator’s office attending. He did recall that another PLC
representative did attend.

The individual stated that the discussion at this meeting centered around the progress that DOI was
making on revising BLM’s grazing regulations, which the PLC felt were creating an undue burden for
ranchers. The former PLC representative had no recollection of Endangered Species Act (ESA) issues
being discussed at this meeting and could not recall discussion about any specific issues or cases. Instead,
he said, the discussion was general in nature and centered on revisions to the grazing regulations. He did
not know if an agenda had been prepared for the meeting. He further stated that it was possible that he
had taken notes during the meeting, but if so he had “no idea where they’re at.” According to the former
PLC representative, Myers’ role at the meeting consisted of “listening and answering questions.” The
former PLC representative stated that he did not recall Myers making any promises to the group and that
it was his observation that Myers was “representing his position as impartially as he could.” He also
specifically recalled that Myers told the group that there was nothing he personally could do to revise the
grazing regulations and they would instead have to be revised through normal channels and process. The
former PLC representative recalled that Myers told the group that there were “rules he had to follow.”
The former PLC representative stated that he, another PLC representative, and the ACGA representatives
left the meeting, which lasted approximately 30 minutes, feeling satisfied that someone at DOI was at
least willing to listen to their concerns about grazing regulations. The former PLC representative stated
that officials at DOI during the Clinton Administration were unwilling to even meet with them to discuss
issues.

Pete Raynor, Associate Solicitor for Parks and Wildlife, SOL, was interviewed and stated that he recalled
attending two meetings with the ACGA, who had sued DOI over ESA issues. Raynor stated that
McKeown attended both of these meetings and chaired the first one. A representative of the ACGA also
attended both meetings. Raynor recalled that Myers was present for the second meeting, which was held
on October 30, 2001, but not the first one. Ann Klee, Counselor to the Secretary, also attended the second
meeting but not the first. An Arizona rancher was present for at least one of the two meetings. Raynor
did not recall either PLC representatives attending the second meeting, which was held in the SOL
conference room.

Raynor stated that the October 30 meeting addressed the issue of incidental takes as they related to the
ESA. Raynor explained that federal law requires that if a federal agency takes any action that affects an
endangered species, it must consult with U.S. Fish and Wildlife Service (FWS). Because the issuance of
a grazing permit is an action that potentially affects endangered species, BLM must consult with FWS.
The ACGA representatives argued that because incidental takes of endangered species associated with
BLM-issued grazing permits had no effect on the overall population of the endangered species, there was
no reason for BLM to consult with FWS. Raynor recalled that during this meeting, Myers allowed the
ACGA representatives to lead the discussion. Myers and the other DOI officials “listened intently” to
their concerns. Raynor said that the ACGA representatives were not asking Myers or DOI to take any
                                                     14
 Information has been redacted pursuant to FOIA
 exemptions 6 & 7C.
                                                                         Case Number: PI-NM-03-0309-I

specific action and instead only wanted their concerns to be heard. Raynor noted that because litigation
was pending, DOI would not have taken any action. Raynor said that the meeting lasted less than an
hour.

Raynor could not specifically recall if Myers left this meeting at any point. However, he recalled that on
“more than a few times” he has heard Myers invoke recusals on particular issues. On some occasions this
has occurred during weekly SOL staff meetings. In these cases, said Raynor, the recusal is respected and
the discussion moves to another topic. Raynor also said that he recalled receiving memoranda on Myers’
recusals, although he was unable to recall any of these specifically.

Ann Klee, Counselor to the Secretary, was interviewed and stated that this meeting concerned ESA issues
and the discussion was lead by an ACGA representative. Klee noted that the ACGA is very active in
ESA matters and this was not the only time she had met with the ACGA representative and others on this
topic. Klee stated that Myers left the meeting prior to the time it was concluded and that a substantial
amount of discussion took place after he left.

Klee provided a copy of the notes she took during this meeting. A review of these notes confirmed that
the discussion focused on ESA issues.

McKeown also recalled attending this meeting and stated that the representative of the ACGA was the
primary spokesperson for his group. McKeown recalled that the ACGA representative made an
“impassioned speech” about ESA issues affecting ranchers and the related lawsuit that the ACGA had
filed against DOI. McKeown recalled that Raynor, Klee, the PLC representative, and the two Arizona
ranchers also attended this meeting. McKeown stated that to the best of his recollection, Myers either did
not attend this meeting or left it early to attend another meeting.

The review of documents from Myers’ DOI computer identified three e-mail messages from the ACGA
representative to Myers. Two of these messages concerned the scheduling of this meeting. The third was
used by the ACGA representative to transmit a position paper on ESA issues prepared by the ACGA to
Myers.

Myers stated that he recalled attending this meeting, although he did not recall how it was scheduled.
Myers said that at the time the meeting was held, both DOI and the ACGA were waiting for a decision to
be made in a Ninth Circuit Court of Appeals case filed by the ACGA involving ESA issues. Myers stated
that at the time of this meeting, both sides had already filed their briefs with the Court and were awaiting
a decision. He also noted that these briefs were filed prior to the time he became Solicitor.

Myers explained that he knew that the ACGA representatives wanted to discuss ESA issues, so he asked
both Raynor and Klee to attend given their expertise in this area. Although he recalled the three
representatives from the ACGA being present, he did not recall the attendance of a representative from
the office of a Congressman. Myers stated that an Arizona rancher lead the discussion, which focused on
ESA issues, a topic on which the ACGA is very active. Myers said that he and the other DOI officials
primarily listened to the concerns of the ACGA. Myers stated that he left the meeting prior to the time
that it ended in order to attend another meeting and was therefore in it only for a short time. When he
returned from this second meeting he saw that the first one was still in progress, but he did not rejoin it.
Myers said that he did not take any action as a result of this meeting.



                                                     15
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.                                                       Case Number: PI-NM-03-0309-I


6. April 15, 2002: Meeting with California Cattlemen’s Association

A review of Myers’ appointment calendar disclosed that on April 15, 2002, between 8:00 a.m. and 9:00
a.m., he was scheduled to meet with an official of the California Cattlemen’s Association (CCA).

A review of H&H billing records disclosed that the CCA was not a client of Myers while he was at H&H.

According to Partner A of H&H, the CCA was not an H&H client between January 2000 and September
2003.

[Name redacted and referred to as an “official” of the] NCBA was interviewed and stated that in April
2002 he was an officer of the CCA. He recalled attending the April 15, 2002 meeting with Myers and
said that he arranged it in early April 2002 by making a telephone call to Myers. He then confirmed the
meeting with a second telephone call to the EA. At the time of this meeting, the NCBA official was in
Washington, D.C., to attend NCBA’s Spring Conference and wanted to meet with Myers to “say hello to
an old friend” and congratulate him on his new position. He said the meeting occurred mid-morning in
Myers’ office in the Main Interior Building and lasted approximately one hour. The NCBA official could
not recall specifically who attended the meeting with him but said that [name redacted] a former
employee with the PLC, and either [names redacted and replaced with “two persons”] both with the CCA,
may have been present.

The NCBA official did not follow an agenda during the meeting with Myers, which he described as an
“informal chat.” He recalled that the discussion was primarily social in nature and included talk about
family and Myers’ new job. The NCBA official further stated that although they generally discussed
issues pertaining to public lands, they did not discuss any specific litigation or policies and he did not
attempt to influence Myers’ position on issues concerning DOI. He did not provide Myers with any
documents or records and he did not recall anyone taking notes during the meeting.

Although the NCBA official did not recall discussing Myers’ recusal agreement or ethics issues during
their meeting, he did recall that Myers may have stated early in their discussion that they would not get
into any “gray areas” relative to his position as Solicitor. The NCBA official also stated that he knew
many people in similar positions and he was familiar with recusal agreements, and therefore, it was
understood before the meeting occurred that certain issues would not be discussed. He further stated that
discussing the specifics of the recusal agreement was unnecessary because the purpose of the meeting was
not to discuss specific issues. The NCBA official stated that he may have sent Myers an e-mail message
sometime after the meeting thanking him for his time.

A review of e-mail messages maintained by the SOL failed to identify any thank-you message.

When Myers was interviewed, he stated that he has known the NCBA official since the mid-1990s, when
Myers was employed by the PLC and the NCBA official worked at the CCA, which was a PLC member.
Myers recalled that this meeting lasted only 15 or 20 minutes and was social in nature given their
previous association. No one else attended this meeting. Myers said that the NCBA official was in town
to attend the spring meeting of the NCBA. Myers also said that the CCA was not a former client of his.




                                                     16
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                         Case Number: PI-NM-03-0309-I

7. April 16, 2002: Meeting with Idaho Cattle Association

A review of Myers’ appointment calendar disclosed that on April 16, 2002, between 10:00 a.m. and 11:00
a.m., he was scheduled to meet with officials from the Idaho Cattle Association (ICA).

A review of H&H billing records disclosed that the ICA was not a client of Myers while he was at H&H.

According to Partner A of H&H, the ICA was not an H&H client between January 2000 and September
2003.

[Name redacted and referred to as an “official” with the] Idaho Rural Partnership, Boise, Idaho, was
interviewed and stated that in April 2002, he served as the Executive Vice President of the ICA.
According to the official, every spring he and a number of ICA officials, to include officers and
committee chairmen, traveled to Washington, D.C., to meet with congressional officials and others,
including DOI officials. The ICA official stated that he recalled meeting with Myers in April 2002 along
with a “handful of ranchers” from Idaho. However, the meeting lasted only five to ten minutes because
Myers had to leave to attend a meeting with DOI Secretary Gale Norton. The official stated that during
their brief time with Myers, they discussed the possibility that BLM field offices would be given the
authority to make more decisions independently, without any input from BLM’s Washington, D.C.,
office.

The ICA official also said that in April 2003, he again met with Myers. He recalled the April 2003
meeting because during the course of it, one of the ICA officials questioned Myers about a particular
issue, and in response Myers advised the official that he was precluded from discussing the matter. The
ICA official could not recall what this matter concerned. He stated that Raynor and McKeown of the
SOL may have also attended this meeting. The ICA official recalled that Myers’ Executive Assistant
always requested that the topics to be discussed be given to him in advance so that Myers could determine
if there were any issues from which he would be precluded from discussing.

McKeown of the SOL stated that he and the ICA official have known each other for many years because
of their Idaho connections and that he has met with him on a number of occasions on various issues.
Although McKeown had no specific recollection of this meeting, he did state that on at least one occasion
he met with the ICA official and perhaps others on issues concerning the Snake River Basin Adjudication,
a matter from which Myers is recused. He also said that on more than one occasion, either Myers or his
EA asked him to meet persons or groups with whom Myers was unable to meet because of his recusal
requirements. However, he could not recall if this particular meeting involved one of those occasions.

When Myers was interviewed, he stated that he recalled that an official of the ICA attended this meeting.
Myers said that he has known the ICA official for a number of years through his former affiliation with
the PLC. Myers acknowledged that he knew that the ICA representatives wanted to meet with him for
other than social reasons, specifically “to talk issues.” For this reason, after greeting them in his office,
Myers had them meet instead with Matt McKeown. Myers stated that he did not attend this meeting and
did not discuss it later with McKeown.




                                                      17
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                                   Case Number: PI-NM-03-0309-I

8. April 16, 2002: Meeting with Wyoming Stock Growers Association

A review of Myers’ appointment calendar disclosed that on April 16, 2002, between 12:00 p.m. and 1:00
p.m., Myers was scheduled to meet with [name redacted and referred to as “an official”] of the Wyoming
Stock Growers Association (WSGA).2

A review of H&H billing records disclosed that the WSGA was not a client of Myers while he was at
H&H.

According to Partner A of H&H, the WSGA was not an H&H client between January 2000 and
September 2003.

The official from the WSGA, Cheyenne, Wyoming, was interviewed and stated that he has known Myers
since the late 1980s. With respect to his April 16, 2002 meeting with Myers, he could not recall
specifically whether he requested the meeting with a written letter or if he made a telephone call to the
EA. The WSGA official estimated that he would have made the request approximately two weeks before
the meeting occurred. He described the meeting as both business and social in nature. During the time of
the meeting, the WSGA official was in Washington, D.C., to attend an annual conference sponsored by
the NCBA. While there, the WSGA official wanted to take the opportunity to meet with Myers and
congratulate him on his new job. He also wanted to highlight issues of concern to WSGA members. The
WSGA official was accompanied to the meeting by two other officials from the WSGA.

The WSGA official recalled arriving at the Main Interior Building and being escorted to Myers’ office by
one of Myers’ staff members after the WSGA official and the others signed the Main Interior Building
visitors’ log. The WSGA official did not follow a written agenda during the meeting but stated that he
initiated the discussion, which included DOI issues, including BLM policies relative to wilderness areas
within the Jack Morrow Hills area of Wyoming. The WSGA official did not have any documents with
him at the meeting, but he did take brief notes during the discussion, which he used to complete a typed
narrative once he returned to Wyoming. The WSGA official explained that he then provided the typed
narrative to the WSGA officers that were not present during the meeting to keep them informed of what
had transpired during the meeting.

A review of this typed narrative disclosed that the WSGA official and the others “congratulated Bill on
his appointment” and discussed several issues related to the Jack Morrow Hills area.

Although the WSGA official stated that BLM issues were generally discussed during the meeting, they
did not discuss specific opinions or cases, and the purpose of the meeting was not in any way to sway
DOI policy, but instead to make Myers aware of issues of concern to the WSGA. He further stated that
while there were “existing opinions” that the WSGA had hoped would be changed, he did not specifically
request that Myers change any opinion. The WSGA official related that after the meeting concluded,
someone in his party commented that the WSGA should not anticipate that Myers would be able to solve
their problems and that he (Myers) was not very helpful. The WSGA official also stated that at the
beginning of the meeting when Myers discussed his role as the Solicitor, he advised the group of his
recusal agreements in general terms.


2
 Myers’ calendar also indicates that he was scheduled to attend a reception hosted by the PLC between 4:30 p.m. and 5:30
p.m. on this date. This meeting was not identified in the PEER and FOE letter. When Myers was interviewed, he stated that he
did not attend this reception and did not send a representative to it.
                                                                 18
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                                         Case Number: PI-NM-03-0309-I

The WSGA official stated that during the week of April 16, 2002, the WSGA sponsored a social
gathering for political appointees from Wyoming. According to the official, this event was strictly social,
and although Myers was invited to the dinner, he did not attend.

When Myers was interviewed, he stated that he recalled meeting with two WSGA officials on this date,
but he did not recall any other WSGA official being present. Myers thought that the discussion at the
meeting concerned the burden of proof in administrative cases. Myers said that the WSGA is not a
former client of his. Myers also said that he did not attend the WSGA social event and did not send a
representative to it.

9. April 19, 2002: National Cattleman’s Beef Association Reception

A review of Myers’ appointment calendar disclosed that on April 19, 2002, between 4:00 p.m. and 5:00
p.m., he was scheduled to attend a reception hosted by the NCBA. The word “Tent” appears on the
calendar next to this entry.

A review of H&H billing records disclosed that the NCBA was a client of Myers while he was at H&H.

Myers’ Executive Assistant stated that the word “Tent” in this calendar entry indicates that Myers’
attendance at this event would have been “tentative,” and therefore he may or may not have attended this
or other events so designated. The EA stated that Myers’ calendar is a working document, and neither he
nor Myers ever corrects an entry on a date that has passed. In addition, the scheduled attendees list on the
calendar is never adjusted to reflect the actual attendees. Accordingly, if Myers did not attend this event,
he would not have erased it from his calendar.

Grant Vaughn, Acting Regional Solicitor, SOL, Albuquerque, New Mexico, was interviewed and stated
that he recalled that Myers was in New Mexico on April 18 and 19, 2002, to address issues concerning the
Pueblo of Sandia, a New Mexico Indian tribe. Vaughn provided a copy of the meeting schedule for these
two days and said that he accompanied Myers to all of these meetings.

A review of this meeting schedule shows that Myers was to travel to Albuquerque on the afternoon of
April 17, 2002, and then attend meetings on April 18 and 19, 2002. According to the schedule, Myers
was to leave Albuquerque at 2:00 p.m. on April 19, 2002, and arrive at Dulles International Airport at
9:12 p.m.

A review of Myers’ travel voucher for this trip confirmed that he left the Washington, D.C., area on April
17, 2002, and returned on the evening of April 19, 2002.

According to Partner A of H&H, the Pueblo of Sandia was not an H&H client between January 2000 and
September 2003.

Myers confirmed that he was in Albuquerque, New Mexico, on April 19, 2002, and did not attend the
NCBA reception, which was held in Washington, D.C. Myers said that he visited New Mexico in order
to address issues concerning land claims made by the Pueblo of Sandia. During the course of this trip,
which lasted over two days, Myers said that he visited with officials from the U.S. Forest Service, met
with a representative of the Pueblo of Sandia, met with operators of the Sandia Peak Tramway, and
participated in an aerial survey of the area. Myers also stated that he did not send a representative to the
NCBA reception.

                                                      19
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                      Case Number: PI-NM-03-0309-I

Eighteen Other Questioned Meetings

In its August 15, 2003 letter, OGE discusses 18 additional meetings attended by Myers that had been
questioned by PEER and FOE. OGE stated that because each of these 18 meetings occurred after July 12,
2002, the only recusal in effect would be where the subject matter of the meeting involved specific cases
and/or other specific matters Myers worked on while he was at H&H. These eighteen meetings are
identified in Figure 3.


                                                 Figure 3




The following specific information was identified concerning each of these eighteen meetings.

1. July 15, 2002: Meeting with Kathleen Clarke and Jim Hughes

A review of Myers’ appointment calendar disclosed that on July 15, 2002, from 4:00 p.m. to 4:30 p.m., he
was scheduled to meet with Jim Hughes and Kathleen Clarke of BLM concerning the “grazing options
paper and grazing re: Grand Staircase Escalante National Monument.”

Jim Hughes, Deputy Director for Policy and Programs, BLM, was interviewed and stated that he recalled
attending this meeting with Myers and Kathleen Clarke. The meeting was held either in Clarke’s office or
Clarke’s conference room and lasted approximately 30 to 45 minutes. Hughes said that he did not take
any notes during this meeting.

Hughes explained that in 2000, an environmental organization known as the Grand Canyon Trust (GCT)
purchased three ranches located within the Grand Staircase Escalante National Monument in Utah. The
                                                    20
Information has been redacted pursuant to FOIA
exemptions 5, 6, & 7C.
                                                                       Case Number: PI-NM-03-0309-I

GCT purchased these ranches in an effort to obtain the grazing permits held by these ranches, and then
stop grazing on them, thereby permanently “retiring” the permits. Hughes stated that the intentions of the
GCT caused BLM to examine the issue of retiring these permits. Specifically, BLM wanted to know if
such a retirement was permissible under existing federal law. Hughes recalled that the GCT was making
numerous telephone calls to BLM and “putting pressure” on them to make a determination of the legality
of such an action. The discussion at this meeting focused on legal issues surrounding such a retirement
and if the law only allowed the permits to be “relinquished” and not retired. Hughes stated that Myers was
present at this meeting to help address the legal questions associated with this issue. According to
Hughes, a formal legal opinion on this subject was eventually issued by the SOL under the signature of
Myers.

Hughes said that at this meeting, he, Clarke, and Myers also discussed an “options paper” or “white
paper” that had been prepared by the office of the Assistant Secretary for Policy, Management and Budget
(PMB), DOI. This document had been prepared prior to this meeting and examined new ideas in the area
of grazing policy. Hughes noted that while Myers was obviously the “key guy” on legal issues, he had
“no input” concerning the concepts raised by the options paper. Hughes noted that during this same time
period, BLM was being pressured by Congress and others through telephone calls and letters to identify
possible ways in which the grazing regulations could be revised, and these ways may have also been
discussed at this meeting. Hughes stated that at the conclusion of this meeting, the attendees agreed to
meet the following day to discuss these issues further.

Kathleen Clarke, Director, BLM, was interviewed and stated that she had no specific recollection of this
meeting. However, Clarke stated that during this same approximate time period DOI was addressing two
specific matters concerning grazing. The first matter concerned the retirement of grazing permits in the
Grand Staircase Escalante National Monument as requested by the GCT. [Two sentences redacted.]

The second matter concerned an “options paper” that BLM had prepared. Clarke stated that she and BLM
had developed a long-range plan for “sustainable ranching” that would address the concerns of all parties,
to include ranchers and environmentalists. This plan considered a variety of alternatives that had not yet
been considered by DOI. Clarke stated that it was likely that the options paper was also discussed at this
meeting. Clarke noted that this paper was subsequently provided to PMB, and they further developed it.

When Myers was interviewed, he stated that at the time of this meeting, BLM and PMB were in the
process of considering changing the existing grazing regulations to make them more susceptible to market
forces. For example, he said, BLM was considering a revision to the regulations that would allow a
rancher whose grazing allotment had been drought stricken to move his livestock to another allotment in
order for his own to rejuvenate. Myers said that this idea, known as “reserve common allotments,” was
one of many being considered by BLM and PMB. Myers said that at this meeting, these and other ideas
were being discussed. His role at this meeting was to address any legal issues that might be raised during
the discussion. Myers also stated that although his appointment calendar indicates that the Grand
Staircase Escalante National Monument issues were discussed, he had no independent recollection of this
taking place.

Myers stated that both the potential changes to the grazing regulations and the potential retirement of
grazing permits in the Grand Staircase Escalante National Monument were new policy issues and ideas.
According to Myers, while at H&H, he did no work on either of these matters. In addition, he never did
legal work for the GCT.


                                                    21
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                                     Case Number: PI-NM-03-0309-I

According to Partner A of H&H, the GCT was not an H&H client between January 2000 and September
2003.


2. July 16, 2002: Meeting with Rebecca Watson, Tom Fulton, Clarke, and Hughes

A review of Myers’ appointment calendar disclosed that on July 16, 2002, from 11:00 a.m. to 12:00 p.m.,
he was scheduled to meet with Jim Hughes, Kathleen Clarke, Rebecca Watson, and Tom Fulton of the
Office of the Assistant Secretary for Land and Minerals Management, for a “premtg re: grazing.”

When Hughes was interviewed, he stated that this meeting was a “working lunch” and was probably held
in the office of Rebecca Watson. Hughes did not know who organized this meeting, which lasted
approximately 45 minutes, but explained that it was held as an organizational meeting to prepare the
group to meet with Secretary Norton two days later. At this meeting, the group determined how the
issues would be presented to Secretary Norton and what, if any, kinds of documents they needed to have
available. Hughes explained that this meeting was held to decide “who would say what” to Secretary
Norton. Hughes stated that Myers was present at this meeting primarily to provide legal input and was
not extensively involved in the discussions that occurred.

When Clarke was interviewed, she stated that she had no specific recollection of this meeting. However,
she said that it was most likely a continuation of the discussion that had taken place the preceding day on
the topics of the Grand Staircase Escalante National Monument retirements and the options paper.

Rebecca Watson, Assistant Secretary for Land and Minerals Management, was interviewed and stated
that she could not recall the specifics of this meeting. However, like Clarke, she stated that several
matters concerning grazing were pending at this time, and it was likely that the discussion at this meeting
concerned these matters. The first matter concerned the retirement of grazing permits in the Grand
Staircase Escalante National Monument. Watson stated during this time, DOI was determining if it had
the legal authority to retire permits pursuant to the Taylor Grazing Act. The second matter concerned
DOI’s long-term grazing policies. Watson stated that DOI wanted to develop and consider new,
innovative ways in which grazing would continue on DOI-managed land, but in a way that would provide
relief for the lands being grazed. Watson said that a document titled “Sustainable Working Landscapes”
had been prepared to describe these new options. Lastly, Watson said DOI was considering revisions to
the grazing regulations in existence at the time. Watson said that it was likely that some discussion
concerning this topic took place at this meeting.

When Myers was interviewed, he stated that this meeting, the one preceding it, and the one held on July
17, 2002, were all held in order to prepare for the meeting with Secretary Norton on July 18, 2002. Myers
explained that as a general practice, officials from DOI’s component agencies are expected to “hash out”
the issues of concern to them prior to meeting with Secretary Norton, not in front of her. Discussion at
this meeting centered on ways in which Norton’s “Four C’s” could be applied to the potential changes to
the grazing regulations. 3 Myers said that neither of these issues concerned any case or matter on which
he worked while at H&H.




3
    The “Four C’s” are Consultation, Cooperation, Communication, and Conservation.
                                                             22
                                                                                     Case Number: PI-NM-03-0309-I

3. July 17, 2002: Meeting with three attorneys from the Office of the Solicitor

A review of Myers’ appointment calendar disclosed that on July 17, 2002, from 1:30 p.m. to 2:00 p.m., he
was scheduled to meet with three attorneys, each from the SOL, concerning “grazing premtg.”4

Laura Brown, Assistant Solicitor, Branch of Public Lands, SOL, was interviewed concerning this
meeting. After reviewing her personal calendar, she stated that this meeting was not documented on it
and she had no recollection of attending it.

Paul Smyth, Deputy Associate Solicitor for Land and Water Resources, SOL, was interviewed and stated
that he recalled attending this meeting with Myers, Comer and Brown. During the course of the
interview, Smyth reviewed his appointment calendar and confirmed that he attended the meeting, which
was held in the SOL conference room. Smyth recalled that at the time of this meeting, the GCT was
seeking to buy out several ranchers who were operating in the Grand Staircase Escalante National
Monument in Utah. By doing so, the GCT would obtain the grazing permits held by those ranchers but
not use them, thereby removing livestock from the land. Smyth explained that John Leshy, Myers’
predecessor, had written a legal opinion that stated that it would have been legal for such a “retirement” of
these grazing lands to occur. Smyth stated that at the time of this meeting, BLM and Secretary Norton
were in the process of determining if these lands could, in fact, be retired from grazing. The purpose of
this meeting was to discuss the legalities of such a retirement. Smyth noted that in October 2002, Myers
issued a formal legal opinion that concluded that the Taylor Grazing Act did not authorize BLM to
permanently retire grazing permits.

Bob Comer, Regional Solicitor, SOL, Denver, Colorado, was interviewed and stated that at the time of
this meeting, he served as the Associate Solicitor for Land and Water, SOL, a position that is currently
held by McKeown. Comer had no specific recollection of attending this meeting. However, he said that
at the time of it, DOI was considering making a number of changes to the existing grazing regulations,
and it was possible that discussion at this meeting centered on this topic. He also said that a document
concerning potential long-term grazing policy issues had been prepared and it was possible that some
discussion also took place concerning this document. This document came to be known as the “white
paper” on grazing.

When Myers was interviewed, he stated that he had no specific recollection of this meeting.

4. July 18, 2002: Meeting with Secretary Norton, Watson, Clarke, Hughes, and Fulton

A review of Myers’ appointment calendar disclosed that on July 18, 2002, from 10:00 a.m. to 11:00 a.m.,
he was scheduled to meet with Secretary Norton, Rebecca Watson, Jim Hughes, Kathleen Clarke, and
Tom Fulton concerning grazing.

According Hughes, this meeting was probably held in the Secretary’s conference room and was attended
by himself, Secretary Norton, Watson, Myers, and Fulton. Hughes recalled that Clarke joined the
meeting by telephone. Although some discussion on the Grand Staircase Escalante National Monument
issues occurred at this meeting, the majority of time was spent addressing potential revisions to the
grazing regulations and the options raised by the “options paper” or white paper on grazing. Hughes

4
  In an attachment to their letter to OGE, PEER and FOE improperly identified one of the attorneys of the SOL, as the Deputy
Assistant Secretary for Fish, Wildlife, and Parks. The Deputy Assistant Secretary for Fish, Wildlife, and Parks did not attend
this meeting, but the SOL attorney did.
                                                              23
                                                                         Case Number: PI-NM-03-0309-I

stated that the purpose of the meeting was to keep Secretary Norton informed on these issues as they were
developing. Hughes said that although Watson was a substantial participant in this discussion, Myers was
not. Hughes again noted that Myers’ role was limited because he was not in attendance as a policy maker
and was there instead to address legal questions. Hughes said none were raised and therefore Myers was
“pretty quiet.” He also noted that Myers never attempted to insert himself or his point of view in these
policy discussions. Hughes further stated Myers never attempted to pressure or persuade Hughes to take a
particular view on any of these pending issues.

Clarke stated that she recalled attending this meeting in Secretary Norton’s office. Clarke said that the
discussion centered on the topics that had been discussed during the preceding days by the same
participants. She said these earlier meetings were held in order to clarify the points that the group wanted
to raise with Secretary Norton.

When interviewed, Watson said that during this meeting, the group discussed the options paper that had
been prepared. The primary purpose of this meeting, according to Watson, was to obtain Secretary
Norton’s views on the policy options that were being considered.

When Myers was interviewed, he stated that this meeting was the culmination of the three meetings
preceding it. Myers said that the purpose of this particular meeting was to ensure that the Secretary’s
philosophy was consistent with the regulatory and policy changes being considered. Myers noted that if
the Secretary was not interested in these changes, work on them would have ceased. Myers recalled that
Secretary Norton seemed to be interested in the potential changes to the grazing regulations, as well as
some of the issues raised in the grazing options paper.

5. August 28, 2002: Meeting with Comer, Brown, and Matthew McKeown

A review of Myers’ appointment calendar disclosed that on August 28, 2002, from 9:00 a.m. to 9:45 a.m.,
he was scheduled to meet with Bob Comer, Laura Brown, and Matt McKeown on the subject of grazing.

After reviewing her appointment calendar while being interviewed, Laura Brown stated that it indicates
that on August 28, 2002, she attended a meeting concerning grazing with “BC,” which was Bob Comer,
“MM,” which was Matt McKeown, and “BM,” which was Bill Myers. Brown stated that during this time
period, a number of issues concerning grazing and changes to the grazing regulations were pending.
Brown recalled that this meeting may have been called by Comer in order to brief Myers on these various
issues. After reviewing documents in her possession, Brown stated that the discussion during the meeting
focused on grazing regulations and policy, pending litigation, and National Environmental Policy Act
issues.

When McKeown was interviewed, he stated that he had no specific recollection of this meeting.
McKeown explained that so many meetings had been held on various topics, including grazing, that he
was unable to recall anything specific about this one.

Comer had no specific recollection of this meeting. However, he said that if it was held, the discussion
would have likely concerned the white paper and the pending revisions to the grazing regulations.

Myers said that this meeting was likely held as a “pre-meeting” in preparation for the scheduled meeting
with Secretary Norton two days later. Myers recalled that by this point, DOI was prepared to discuss the
potential changes to the grazing regulations in a public forum in order to gauge the reaction of the public.
This discussion was going to be effected by a public speech that Clarke was scheduled to give in early
                                                     24
                                                                        Case Number: PI-NM-03-0309-I

September 2002. Myers said that the purpose of this meeting may have been to “clear up” any unresolved
issues prior to the Clarke speech.

6. August 30, 2002: Meeting with Secretary Norton, P. Lynn Scarlett, Watson, Clarke, and Hughes

A review of Myers’ appointment calendar disclosed that on August 30, 2002, from 12:00 p.m. to 1:00
p.m., he was scheduled to meet with Secretary Norton, P. Lynn Scarlett, Jim Hughes, Kathleen Clarke,
and Rebecca Watson concerning grazing.

When Jim Hughes was interviewed, he stated that he had no specific recollection of this meeting.
However, he did state that during this approximate time period, BLM and PMB, with guidance from the
Secretary’s office, were continuing to examine the types of issues that should potentially be included in
pending grazing reforms. Hughes also recalled that during this period, Myers offered to assign two of his
staff members, one of whom was Brown, to work on these issues.

Clarke had no specific recollection of this meeting. However, she stated that it was likely that the same
topics continued to be discussed.

Watson said that this meeting was likely held to further obtain Secretary Norton’s views on the matters
that continued to be discussed.

P. Lynn Scarlett, Deputy Assistant Secretary for PMB, DOI, was interviewed and stated that she attended
numerous meetings on grazing during this time period. Scarlett stated that to the best of her recollection,
this was a general policy meeting where the discussion centered on the challenges being faced by the
ranching community, including drought and the urbanization of the west. There was also some discussion
concerning the differing positions on these subjects within the ranching community itself.

When Myers was interviewed, he stated that this meeting was held with Secretary Norton to further
discuss the potential changes to the grazing regulations. Myers said that he had no specific recollection of
the discussion.

7. September 10, 2002: Meeting with American Farm Bureau Federation

A review of Myers’ appointment calendar failed to identify any scheduled meeting between Myers and
the American Farm Bureau Federation (AFBF) on September 10, 2002.

When Myers was interviewed, he stated that he did not meet with the AFBF or any of its officials or
representatives on this date. When questioned about the existence of this meeting on the PEER and FOE
complaint letter to OGE, Myers noted that his appointment calendar indicates that he was scheduled to
attend a reception sponsored by the AFBF not on September 10, 2002, from 3:30 p.m. to 6:00 p.m., but
instead on December 10, 2002, from 3:30 p.m. to 6:00 p.m. (See meeting #17 below). Myers speculated
that while preparing their complaint letter to OGE, PEER and FOE mistakenly reported this AFBF event
as occurring in both September and December 2002. Myers noted that since this was a holiday reception,
it was not likely held in September. According to Myers, on the afternoon of September 10, 2002, he was
at a Division of Mineral Resources, SOL, conference held at DOI’s National Training Center in West
Virginia.

Dan Meyer, General Counsel, PEER, was interviewed and confirmed that the September 10, 2002,
meeting was listed in error in the attachment to their August 5, 2003, referral letter to OGE.
                                                     25
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                       Case Number: PI-NM-03-0309-I


A review of Myers’ appointment calendar disclosed that the Division of Mineral Resources conference
did appear on his calendar on September 10, 2002, from 3:00 p.m. to 5:15 p.m.

8. September 13, 2002: Meeting with Secretary Norton, an Environmental Law Professor, and Watson

A review of Myers’ appointment calendar disclosed that on September 13, 2002, from 3:30 p.m. to 4:30
p.m., he was scheduled to meet with Secretary Norton, an environmental law professor, and Rebecca
Watson concerning grazing.

Watson stated that an environmental lawyer wanted to meet with Secretary Norton concerning the Grand
Staircase Escalante National Monument permit retirement issues. Watson said that she, Secretary Norton,
and Myers met with the environmental lawyer on September 13, 2002, to discuss his concerns.

According to Myers, [name redacted] is a professor of environmental law at the [school was redacted.]
[One sentence was redacted.] Myers explained that the environmental law professor requested this
meeting because he wanted to ascertain the status of the Grand Staircase Escalante National Monument
issue. The environmental law professor told Myers, Watson, and Norton that the GCT had entered into
contracts with ranchers in the monument area for the purchase of their grazing contracts and they wanted
to know if DOI’s policy would support these contracts. Myers recalled that Secretary Norton was
sympathetic to the concerns of the environmental law professor and the GCT, but she wanted to be certain
that any DOI actions would be consistent with existing law. Myers recalled telling environmental law
professor that it was likely that DOI would allow the permits to be temporarily rested but would not allow
them to be permanently retired. Myers noted that at this time, his formal Solicitor Opinion on this issue
had not yet been issued, but the legal research supporting it had been completed and he had reviewed it.
Myers said that he has never done legal work for the GCT.

Myers provided a copy of the notes he took during this meeting. A review of these notes found them to
be consistent with Myers’ recollection of the meeting.

A review of H&H billing records disclosed that the GCT was not a client of Myers while he was at H&H.

According to Partner A of H&H, the GCT was not an H&H client between January 2000 and September
2003.

9. October 2, 2002: Meeting with Comer

A review of Myers’ appointment calendar disclosed that on October 2, 2002, from 2:30 p.m. to 3:30 p.m.,
he was scheduled to meet with Bob Comer on the topic of grazing.

Comer had no specific recollection of this meeting. However, he said that the meeting could possibly
have concerned several issues. Comer explained that he was not at DOI on the day that Myers and
Watson met with the environmental law professor. However, he was involved in the GCT issue and
discussed it with Myers on a number of occasions to include possibly this one. In addition, said Comer, it
was possible that the discussion at this meeting concerned the legal opinion that Myers issued on the GCT
issue and the retirement of grazing permits. Finally, said Comer, it was possible that the discussion
concerned the settlement of a dispute between BLM officials and a Wyoming rancher. Comer said that he
had been working on this settlement since May 2002. He also said that Myers was not heavily involved
in this matter, although he was occasionally briefed on the status of it.
                                                    26
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.                                                    Case Number: PI-NM-03-0309-I


When Myers was interviewed, he stated that he had no specific recollection of this meeting. However, he
said that on October 4, 2002, only two days after this meeting, he issued Solicitor Opinion M-37008
concerning the authority of BLM to consider requests for retiring grazing permits and leases on public
lands. Myers therefore concluded that his discussions with Comer that day, assuming they occurred,
could have been about this opinion. Myers also recalled that sometime after his September 13, 2002
meeting with Secretary Norton, Watson, and the environmental law professor, the professor wrote a
follow-up letter to which Myers subsequently responded. Myers said that this meeting may have been
held concerning the preparation of his response letter to the environmental professor.

A review of SOL correspondence identified an October 7, 2002 letter from Myers to the environmental
professor. In this letter, Myers discussed their meeting with Secretary Norton and the results of it.

10. November 13, 2002: Meeting with Ranchers

A review of Myers’ appointment calendar disclosed that on November 13, 2002, from 7:30 a.m. to 8:00
a.m., he was scheduled to meet with “Mark Burn” of the “National Cattleman’s Association.”

[Name redacted and referred to as a “Legislative Correspondent” or the “Correspondent”] was
interviewed and stated that he currently resides in the Washington, D.C., area and did so in November
2002. The Correspondent stated that he attended this morning meeting in Myers’ office along with his
father, who requested the meeting. No one else attended.

The Legislative Correspondent explained that his family operates a ranch located on the border between
Oregon and California. This operation, known as the [name of the company is redacted since it is an
identifier.] Company controls approximately 1,000 cattle that graze on public lands. The Correspondent
stated that his father has been an “advocate” for the PLC, which is an entity of the NCBA, and has known
Myers since the time that Myers was employed by the PLC. The Correspondent did not know if his father
held an elected or appointed position with PLC. The father was not an NCBA employee at the time of
this meeting.

A review of H&H billing records disclosed that the [name of the company is redacted] Company was not
a client of Myers while he was at H&H.

According to Partner A of H&H, the [name of the company is redacted] Company was not an H&H client
between January 2000 and September 2003.

The Correspondent said that in November 2002 his father was in Washington, D.C., to attend some type
of PLC event. During the course of his multi-day visit, his father had also scheduled a meeting with
Myers. The father invited his son to accompany him to the meeting. The Correspondent said that he did
not schedule this meeting and did not know the specifics of this process. The Correspondent explained
that his father asked him to join him at the meeting with Myers in order for the father and son to spend
additional time together during the father’s visit.

During the course of the meeting, which the Correspondent estimated to have been approximately 15
minutes, the father and Myers primarily discussed water usage issues, including those affecting the
Klamath River Basin and the Middle Rio Grande Valley in New Mexico. The Correspondent specifically
recalled discussion concerning the Silvery Minnow case in New Mexico. He explained that his family’s
ranch uses water and is therefore very much interested in issues that may affect water use policies and
                                                   27
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                        Case Number: PI-NM-03-0309-I

actions. The Correspondent explained that his father was interested in ascertaining the current status of
these two issues. With the exception of some brief talk on the Grand Staircase Escalante National
Monument matter, no grazing issues were discussed. The Correspondent stated that he did not take any
notes during this meeting and was confident that his father had not either. According to the
Correspondent, this meeting was more of a personal or social meeting than a business meeting. He said
that his father did not ask that Myers take any kind of action on any particular issue or case.

The Correspondent stated that in September of 2003, his father advised him that Myers had not done any
legal work for the family’s ranching operation.

When Myers was interviewed, he stated that he knew the father from the PLC and that he came in with
his son to visit. Myers stated that they primarily discussed issues involving the Klamath River Basin and
the Middle Rio Grande Valley in New Mexico. Myers noted that neither of these issues were in existence
at the time he was employed by H&H, and he had therefore “never heard of” either before arriving at
DOI. Myers recalled suggesting that the father contact Sue Ellen Wooldridge of DOI to ascertain more
information on the status of the Klamath issues because Wooldridge was handling this matter for DOI.
Myers stated that while he knew that the father had spoken to Wooldridge on previous occasions
concerning Klamath, he did not know if he had spoken to her again as a result of his suggestion. Myers
said that he has never performed legal work for the father or his company.

11. November 13, 2002: Meeting with Wyoming State Grazing Board

A review of Myers’ appointment calendar disclosed that on November 13, 2002, from 8:00 a.m. to 8:30
a.m., he was scheduled to meet with two representatives from the Wyoming State Grazing Board
(WSGB).

A review of H&H billing records disclosed that the Wyoming State Grazing Board was not a client of
Myers while he was employed by H&H.

According to Partner A of H&H, the Wyoming State Grazing Board was not an H&H client between
January 2000 and September 2003.

[Name redacted and referred to as “an official” with the] Wyoming State Grazing Board, Boulder,
Wyoming, was interviewed and stated that his organization was established pursuant to Wyoming state
law and represents ranchers who graze cattle and sheep pursuant to BLM-issued permits. The official
stated that in November 2002 he and [name redacted] a Wyoming State Grazing Board Range Consultant
were in Washington, D.C., to attend a meeting with their congressional delegation. During this trip, the
representatives of the WSGB also met with Myers at their request. The WSGB official noted that
whenever he travels to Washington, D.C., he attempts to meet with “anybody and everybody” who is
willing to listen to his concerns.

The WSGB official stated that the meeting with Myers was scheduled specifically to discuss “burden of
proof” issues. He explained that the Interior Board of Land Appeals was the agency that adjudicated
disputes between the BLM and a grazing permittee. When hearing these issues, the Interior Board of
Land Appeals had followed guidelines that required the BLM to prove that its actions were appropriate.
However, under the Clinton Administration, these guidelines were changed so that the grazing permittee
was required to prove that the BLM’s actions were not appropriate. The Wyoming State Grazing Board
felt that the original standard should apply and that the burden of proof should be on BLM. According to

                                                    28
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                         Case Number: PI-NM-03-0309-I

the WSGB official, he and the WSGB Range Consultant wanted to “make some advancement on the
issue” by bringing it to the attention of Myers.

The WSGB official recalled that the WSGB Range Consultant scheduled the meeting with Myers and he
therefore had no knowledge of the details of the scheduling process. He could not recall the time of day
the meeting occurred but did know that it only lasted ten minutes. The WSGB official said that there was
no agenda for the meeting and he did not recall anyone taking notes or recording the meeting. He said
that the Range Consultant had at one point provided Myers with a “position statement” pertaining to the
burden of proof issue. However, the WSGB official did not know if the Range Consultant hand-delivered
it to Myers at this meeting or if he had provided it to him prior to the meeting. According to the WSGB
official, they failed to discuss any specifics concerning the burden of proof issue because very early in the
meeting Myers asked to be excused and the meeting ended quickly. He stated that he was very
disappointed with the meeting and believed that it was a waste of their time. The WSGB official added
that he was under the impression that Myers did not even read the position statement they provided.

The WSGB official stated that there was no follow-up to the meeting and to his knowledge, the Wyoming
State Grazing Board has not been contacted by Myers since the meeting occurred. The WSGB official
again expressed disappointment with the meeting and stated that his time would have been better spent
“touring the Smithsonian museums.”

The Range Consultant, Wyoming State Grazing Board, was interviewed and stated that he has known
Myers since the 1980’s, when Myers worked for Senator Alan Simpson (R-Wyoming). He stated that in
November 2002 he was in Washington, D.C., to meet with PLC officials on grazing issues. While there,
he also wanted to meet with someone from DOI, and he therefore contacted Myers’ office two weeks in
advance and scheduled a 30 minute meeting. According to the Range Consultant, the purpose of the
meeting was to present a position statement concerning burden of proof issues to Myers. A WSGB
official also attended the meeting.

The Range Consultant reported that the actual meeting lasted only ten minutes, during which time he
presented the position paper to Myers. Once Myers received the paper, he glanced over the first page and
then asked to be excused from the meeting due to scheduling conflicts. However, Myers assured the
Range Consultant and the WSGB official that he would review the paper.

When Myers was interviewed, he recalled attending this meeting with an official from the WSGB and a
Range Consultant. Myers noted that the Wyoming State Grazing Board is not a trade association like the
NCBA but is instead a subdivision of the Wyoming state government. Myers said that one of the
attendees at the meeting is a consultant to the Wyoming State Grazing Board. Myers stated that this
meeting lasted approximately 15 minutes, and during the course of it they discussed the burden of proof
required in administrative cases. Myers said that the Wyoming State Grazing Board was not a client of
his while at H&H.

12. November 14, 2002: Speech for Nevada Cattlemen’s Association

A review of Myers’ appointment calendar disclosed that on November 14, 2002, he was scheduled to
speak to the Nevada Cattlemen’s Association (NCA) in Winnemucca, Nevada.

A review of H&H billing records disclosed that the NCA was not a client of Myers while he was
employed by H&H.

                                                     29
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                        Case Number: PI-NM-03-0309-I

According to Partner A of H&H, the NCA was not an H&H client between January 2000 and September
2003.

When the EA was interviewed, he stated that Myers is sometimes asked to speak at events sponsored by
various organizations. He explained that on most occasions, the request comes by way of a letter to
Myers. When the request is made verbally, he requests that it be followed up in writing.

A review of documents maintained by the SOL identified an October 16, 2002 memorandum from the
NCA to Myers. This memorandum requested that Myers speak to the organization during its Public
Lands Meeting on November 14, 2002, concerning “current regulations under Rangeland Reform and the
legal challenges with the changing regulations.” The review also identified Myers’ itinerary for this trip,
which stated that he was to speak and answer questions for approximately 30 to 45 minutes.

A review of SOL documents also identified a document entitled “Remarks of Bill Myers to Nevada Cattle
Association, Winnemucca, Nevada,” which was apparently mistakenly dated November 15, 2002. A
review of this document disclosed that it identifies a series of topics on which Myers was to speak,
including the recently issued Solicitor’s Opinion on retiring grazing permits, the Arizona Cattle Growers’
court decision, and potential changes to the grazing regulations. At the conclusion of this document, there
is a list of topics from which Myers is recused.

A review of Myers’ ethics file identified a “Report of Payment Accepted from a Non-Federal Source
Under 31 U.S.C. §1353” form (Form DI-2000) for this trip, which was signed by Myers on November 12,
2002. The form indicated that Myers was requesting authorization to accept payment from the NCA for
lodging in Winnemucca, Nevada, at a cost of $72. Designated Agency Ethics Official Shayla Simmons
signed the form as the Authorized Approving Official on November 13, 2002.

A review of the travel voucher filed by Myers in connection with this trip confirmed that Myers’ hotel
room was paid for by the NCA. All other expenses associated with this trip were paid for by the SOL.

When Myers was interviewed, he was shown the speech and stated that he may have used it when
delivering remarks to the NCA. Myers said that even if he did not use this specific document, which was
prepared by McKeown, he likely spoke on the same topics it discusses, including the Solicitor’s Opinion
on retiring grazing permits, which had been issued one month earlier; the Arizona Cattle Growers’ court
case; and pending changes to the grazing regulations. Myers said that no one from H&H was present for
this speech.

13. November 18, 2002: Speech for Idaho Cattle Association

A review of Myers’ appointment calendar disclosed that on November 18, 2002, he was scheduled to
speak to the Idaho Cattle Association (ICA) in Sun Valley, Idaho.

A review of H&H billing records disclosed that the ICA was not a client of Myers while he was employed
by H&H.

According to Partner A of H&H, the ICA was not an H&H client between January 2000 and September
2003.



                                                    30
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                         Case Number: PI-NM-03-0309-I

A review of documents maintained by the SOL identified a November 13, 2002 fax from the ICA to
Myers. Attached to the cover sheet was the schedule for the ICA’s “Annual Convention and Trade
Show.”

When an official formerly of the ICA, was interviewed, he stated that he attended this convention and
recalled Myers speaking at it. The ICA official said that Myers spoke for approximately 15 or 20 minutes
and then took questions from the audience. He had no recollection of the specific topics on which Myers
spoke.

Myers also recalled delivering this speech and stated that he likely spoke to the ICA on the same topics on
which he spoke to the NCA. Myers stated that no one from H&H was present for this speech, and he
thought that it had been paid for by the SOL, and therefore no DI-2000 form was needed. He said that the
NCA was not a former client of his.

A review of the travel voucher filed by Myers in connection with this trip confirmed that the entire cost of
this trip was paid by the SOL.

14. November 21, 2002: Meeting with Hughes, Clarke, and Watson

A review of Myers’ appointment calendar disclosed that on November 21, 2002, from 1:00 p.m. to 2:00
p.m., he was scheduled to meet with Hughes, Clarke, and Watson concerning grazing regulations.

When Jim Hughes was interviewed, he stated that this meeting was probably held in Watson’s office and
lasted no more than one hour. Hughes explained that by this point in time, he and the others considering
potential reform to the grazing regulations had identified a “rough” list of the areas that were of concern
and required reform. This list had been circulated to various offices, including the SOL, for comment.
The purpose of this meeting was to address the comments and questions that had been raised concerning
this list. Hughes said that this meeting was a question and answer session and was designed to provide
information to the participants. Hughes recalled that although Myers did ask several questions during this
meeting, all were focused on legal aspects of the potential changes.

Hughes recalled that in the fall of 2003, perhaps at this or some other meeting, a matter was raised during
the course of the discussion involving a court case that Myers had been involved in. Myers requested that
the group stop discussing the issue because he had been involved in litigation related to it. Myers’ request
was honored by the group. Hughes was unable to recall the specifics of this meeting, including when it
was held and who else was present.

When Clarke was interviewed, she stated that she had no specific recollection of this meeting. She
suggested that it may have been called by Watson to ascertain the status at that time of the potential
revisions to the grazing regulations that were still under consideration.

Watson stated that by the time of this meeting, BLM’s grazing staff had prepared a final set of proposed
changes to the regulations. Prior to the time of this meeting, these proposed changes had been distributed
to the meeting participants and they were convening to discuss the changes.

Myers said that he had no specific recollection of the discussion that occurred at this meeting. However,
he did say that by this time period, DOI was “getting more serious” about modifying the existing grazing
regulations, and it is likely that this meeting concerned these modifications. Myers said that BLM
probably initiated this meeting to discuss the scope of the regulatory changes. Myers said that in 1995,
                                                     31
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                        Case Number: PI-NM-03-0309-I

the Babbitt Administration did a “complete re-write” of the grazing regulations. BLM did not want to
perform such a “line-by-line” revision process and instead only wanted to change certain aspects of the
regulations. Myers recalled that these changes involved several areas, including the transfer of permits,
water rights, and the ownership of range improvements.

15. November 21, 2002: Meeting with Comer

A review of Myers’ appointment calendar disclosed that on November 21, 2002, from 3:00 p.m. to 3:30
p.m., he was scheduled to discuss the “Wyoming rancher settlement,” the “honors selection process,” and
“grazing” with Bob Comer by telephone.

Comer recalled that during this time period, he had been involved in the SOL’s “honors program.” He
explained that this program is used by the SOL to identify and hire new attorneys who are recent law
school graduates. During this call, he provided a report to Myers on both the process and the candidates.
Comer also said that it was likely that he and Myers may have also discussed the [name redacted and
referred to as the “Wyoming rancher”] settlement during this call, given that the case was settled at about
this time. Comer further stated that it was also possible that he and Myers discussed the environmental
law professor and GCT issue, given that at about this time the environmental law professor wrote a letter
to Myers stating that he agreed with DOI’s position on the ability of BLM to retire grazing permits. It
was also possible that the legal opinion issued on this topic by Myers was discussed as well.

When Myers was interviewed, he stated that this telephone call involved three issues. First, Myers and
Comer discussed the administrative settlement of a series of disputes between BLM and a Wyoming
rancher. Myers stated that Comer was the lead attorney from the SOL who was responsible for providing
legal advice on the settlement and Comer likely wanted to provide Myers with an update on the status of
the pending settlement. Myers said that he never did legal work for the Wyoming rancher. Second, they
discussed the honors program for new hires within the SOL. Third, they discussed the pending changes to
the grazing regulations, although Myers could not recall exactly what issues were discussed.

According to Partner A of H&H, the Wyoming rancher involved in a dispute with the BLM was not an
H&H client between January 2000 and September 2003.

16. November 22, 2002: Meeting with Watson

A review of Myers’ appointment calendar disclosed that on November 22, 2002, from 1:00 p.m. to 2:30
p.m., he was scheduled to meet with Rebecca Watson concerning grazing.

When Watson was interviewed, she stated that she had no specific recollection of this meeting.

When Myers was interviewed, he stated that this meeting was probably held in Watson’s office and that
other persons from Watson’s staff and BLM probably attended. Myers stated that this meeting was likely
called by Watson in order for her to give some guidance to those present on how she wanted to further
pursue changes to the grazing regulations.

17. December 10, 2002: Meeting with American Farm Bureau Federation

A review of Myers’ appointment calendar disclosed that on December 10, 2002, from 3:30 p.m. to 6:00
p.m., he was scheduled to attend a reception sponsored by the AFBF.

                                                     32
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                         Case Number: PI-NM-03-0309-I

[Name redacted and referred to as an “attorney” from the] AFBF, was interviewed and stated that he has
known Myers for many years. The attorney recalled attending the AFBF Christmas party on December
10, 2002, along with approximately 300 other persons. The attorney spent much of his time at the party
looking for and greeting people that he knew. He said that he did not see Myers at this party. “Chances
are, if he was there, I would have seen him,” said the attorney. He also said that he has spoken to others
at the AFBF who also attended this party, and they had no recollection of seeing Myers there.

When Myers was interviewed, he stated that this was a holiday reception sponsored by the AFBF that he
did not attend. Myers could not specifically recall where he was at this date and time, but said that it was
likely that he was in his office at the Main Interior Building working. Myers stated that he did not send a
representative to this event.

18. December 18, 2002: Meeting with Comer, Scarlett, Watson, and Steve Griles

A review of Myers’ appointment calendar disclosed that on December 18, 2002, from 2:00 p.m. to 3:00
p.m., he was scheduled to meet with Deputy Secretary Griles, Bob Comer, Rebecca Watson, and Lynn
Scarlett concerning grazing.

Watson said that she had no specific recollection of this meeting. However, she said that Griles likely
attended this meeting for the purpose of “moving us forward” on the subject of grazing regulation reform.
Watson also said that this may have been the final meeting held before the proposed regulation changes
were made public by Clarke in a January 2003 speech to the NCBA.

When Scarlett was interviewed, she stated that this meeting was likely held in order to finalize the
proposed changes to the grazing regulations prior to the time they were publicly disseminated. Scarlett
thought that there was also some discussion at this meeting concerning the options paper, which Scarlett
said contained proposals to “enable conservationists and grazing interests to work together.”

Comer said that this meeting may have concerned some follow-up discussion related to Myers’ legal
opinion on the grazing permit retirement issue. He said it also may have concerned the revisions to the
grazing regulations, given that at one point there was a push to have these revisions completed by the end
of the year. Comer said that he had no specific recollection of Griles either attending or not attending this
meeting.

When Myers was interviewed, he stated that by this time the group working on the revisions to the
grazing regulations had reached a consensus on how the regulations should be changed. They therefore
wanted to meet with Deputy Secretary Griles to discuss the proposed changes with him. However, it was
Myers’ recollection that Griles was unable to attend this meeting, and therefore nothing substantive was
discussed.

Seven Additional Contacts with H&H

During the course of our investigation, seven additional contacts between Myers and H&H were
identified. One of these contacts involved a former client of Myers. These seven contacts were not noted
in the PEER and FOE letter to OGE and were instead discovered as a result of our investigation. These
seven additional contacts are identified in Figure 4.



                                                     33
 Information has been redacted pursuant to FOIA
 exemptions 6 & 7C.                                                    Case Number: PI-NM-03-0309-I




                                                  Figure 4




Through interviews and document reviews, the following information was identified concerning each of
these seven contacts.

1. October 4, 2001: Post-Reception Dinner with H&H Attorneys

When Partner B was interviewed, he stated that after the October 4, 2001 H&H reception for Myers and
Sansonetti, Myers and his wife, Partner B, and approximately 12 other persons went to dinner at a
German restaurant near the hotel. Partner B recalled that Partner A, Partner D, Sansonetti, and perhaps
[name redacted and referred to as “Partner F,”] another H&H attorney, and others attended this dinner.
Partner B said that he shared a taxi with Myers and his wife on the way to the restaurant and that Myers
“insisted” on paying part of the fare. Partner B could not recall who paid for the meal that evening but
said that it was likely Partner D, who was the senior H&H official present. Partner B stated that he did


                                                     34
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                                     Case Number: PI-NM-03-0309-I

speak to Myers and his wife that evening, including while in the taxi and at dinner, but they did not
discuss any H&H business matters or any matter pending before DOI.

According to Partner C, after the reception, he and a number of others who attended the reception,
including Myers and his wife, went to dinner together. Unlike Partner B, Partner C recalled that the group
dined at a French restaurant. Partner C stated that Myers and his wife sat at a table next to his. Partner C
did not know who paid for Myers’ dinner that evening but said that he (Partner C) did not. Partner C
stated that on occasions when a group of H&H employees go to dinner together, it is common practice for
one of the employees to pay the bill for everyone using his or her H&H credit card. Given the
circumstances, Partner C’s impression was that this occurred on this particular occasion as well.

After reviewing his expense reports, Partner D stated that he had two charges on his H&H American
Express card for dinner at La Chaumiera, a Washington, D.C., restaurant, for the evening of October 4,
2001. Partner D said that these two charges were to pay for the expenses incurred by at least two of the
tables that were occupied by persons from the H&H group. Partner D noted that it was possible that other
persons paid for other tables that H&H may have occupied that evening. Partner D also stated that his
expense report indicates that Myers was one of the guests for whom he paid.

A review of Partner D’s expense report confirmed that he did claim the cost of the dinner for Myers and
others, an amount totaling $803.48, as an official expense. The report also indicates that Partner D,
Partner A, Partner C, Partner B, Sansonetti, Myers, and seven other persons attended this dinner.

Myers stated that after the reception he and a group of approximately ten to sixteen H&H employees went
to dinner at a restaurant in Georgetown. Contrary to the recollection of both Partner B and Partner C,
Myers was certain that his wife did not attend this dinner and instead took their children home after the
reception.5 Partner C, Partner B, and Sansonetti did attend. Myers was unable to recall who paid for this
dinner, which lasted approximately one hour. However, he stated that in this type of group setting it
would be his normal practice to “put cash on the table” and pay for his own meal. Myers stated that no
one discussed any existing or potential business matters with him at either the reception or the subsequent
dinner.

2. October 5, 2001: Dinner with H&H Attorney

When Partner C of H&H was interviewed, he stated that on the evening of October 5, 2001, he had dinner
with Myers and his wife. Partner C was in Washington, D.C., to attend the reception that had been held
for Myers the preceding evening. Partner C recalled that Myers’ wife arranged the dinner after Partner C
had suggested it. Myers, driving his personal vehicle, picked up Partner C and they both then met Myers’
wife at the Bistro Bis Restaurant. No one else attended. During the course of the dinner, the three
discussed the kinds of issues that Myers was involved in on a day-to-day basis. For example, Partner C
specifically recalled that Myers discussed the fact that a moose hunter had apparently shot a hole in the
Alaska pipeline and that this had raised issues that he (Myers) needed to address. They also discussed
“how late he works, kids, and what meetings he goes to.” Partner C said that no specific cases or H&H
matters were discussed.

Partner C stated that at the conclusion of the evening, he paid for the dinner using his H&H American
Express card, which he stated is to be used solely for H&H business. Partner C then reported the cost of

5
 Myers’ recollection that his wife was not present for this dinner was corroborated by Partner D’s expense report, which did
not list her as an attendee.
                                                                35
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                                        Case Number: PI-NM-03-0309-I

the dinner on the expense report he filed in connection with his trip. During the interview, Partner C
produced this American Express card, which contains both his name and the firm’s name.

Partner C stated that Myers clearly knew that Partner C was paying for the dinner. He also stated that
Myers may have seen him put his credit card into the folder in which the bill came. However, Partner C
said that even if Myers did see him put a credit card into the folder, he would not have known which
credit card he was using. “I don’t know if he knew” what card was being used, stated Partner C. Partner
C further stated that he found nothing inappropriate about H&H paying for the dinner for Myers and his
wife, given that the dinner could be considered “an extension” of the reception the previous evening. “If
it was OK the night before, why not now?” Partner C asked. Partner C recalled that Myers’ wife
suggested that Myers should pay for the dinner, but Myers stated that it would be “OK” if Partner C paid.

A review of Partner C’s expense report confirmed that he did claim the cost of the dinner, an amount
totaling $232.05, as an official expense. Attached to the report was a receipt for the dinner. A review of
this receipt disclosed that the three ate at the Bistro Bis at 15 E Street in Washington, D.C. The review of
the expense report also disclosed that these costs were charged to H&H account number “54722-62-01.”

Partner C stated that “54722” indicates that the expense was posted to an “administrative meals” account
at H&H and was not charged to a particular client. Account number “54721” is an administrative travel
account. All of the expenses associated with this trip, including this dinner, were charged to those two
accounts. The “62” in the account indicates that it should be charged to the Boise H&H office and the
“01” indicates that it is classified as a “general” H&H matter and is not charged to a particular H&H
department, such as litigation, resources, or business.

A review of Partner C’s timesheet for this day disclosed that the account to which his time with Myers
was charged was “H&H Business Development,” the matter was “General Business Development
Activities,” and the Practice Type was described as “H&H Administrative Work.” This review also
revealed that earlier in the day on October 5, 2001, Partner C spent one hour meeting with on Capital Hill.

[Five sentences redacted.]

Partner C said that during the October 5, 2001 dinner, he did mention to Myers that earlier in the day he
had met with a Congressman and his Chief of Staff on the [name of company redacted since it is an
identifier] matter. Partner C stated that he did so because Myers and the Chief of Staff had worked
together years earlier at the PLC. Partner C said that he did not discuss the details of the discussion he
had had with the Congressman and Chief of Staff but instead told Myers that the Chief of Staff had asked
about him.

Myers stated that he recalled attending this dinner with his wife and Partner C at the Bistro Bis, which is
located in the Hotel George near Union Station in Washington, D.C. Myers said that he and his wife have
been friends with Partner C and his wife since 1997, when Myers arrived at H&H. Myers stated that he
and his wife have gone to dinner with Partner C and his wife on a number of previous occasions, although
Partner C’s wife was not present for this particular dinner. On some occasions, they go to each other’s
homes for dinner. Myers also said that he and his family have been to Partner C’s home for
Thanksgiving. Myers said that he could not recall who paid for dinner that evening, and he did not recall
a discussion at the conclusion of the dinner over who would pay. Myers stated that if Partner C had paid,
he would have assumed that it was with his personal funds, given that no H&H or other business matters
were discussed at the dinner. Myers said that the dinner was “strictly social” and that he was having
dinner with “an old friend,” not with an H&H attorney. After being advised that Partner C had paid for
                                                     36
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                                                    Case Number: PI-NM-03-0309-I

the dinner using his H&H American Express card, Myers stated that he was surprised to learn this. Myers
also stated that he would have “preferred” that Partner C paid for the dinner using personal funds. Myers
said that while he was employed by H&H, he had an American Express card that he was to use only for
official H&H business. Myers stated that he assumed that Partner C had the same kind of American
Express card, but he did not know he used this card to pay for the dinner.

3. January 16, 2002: Idaho Environmental Forum

When Partner C was interviewed, he stated that he is a member of the steering committee of the Idaho
Environmental Forum (IEF). In January 2002, the IEF held an event in Boise, Idaho, called the
“Legislative Forecast 2002,” and Myers spoke at this event.

A review of documents maintained by the SOL identified an agenda for this event. The agenda indicated
that Myers was scheduled to speak for 40 minutes on a topic identified as the “View from DC: Inside the
New Interior Department.” The event was held on January 16, 2002. This review also identified a
December 19, 2001 letter from Partner C to Myers and an e-mail concerning this event.

A review of Myers’ appointment calendar confirmed that he was scheduled to speak at the IEF in Boise
on January 16, 2002.

According to an official of the Boise Metro Chamber of Commerce (BMCC), the IEF is not a member of
the BMCC.

Partner C explained that Myers was originally scheduled to address the Idaho State Bar Association at a
luncheon event, and then speak to the IEF later that afternoon. However, his travel was delayed, thereby
causing him to arrive late and miss the luncheon. Partner C said that Myers then spoke for only
approximately 15 minutes to the IEF. Partner C recalled that the speech focused on the day-to-day issues
that the SOL was addressing.

A review of documents maintained by the SOL identified a “Report of Payment Accepted from a Non-
Federal Source Under 31 U.S.C. §1353” form (Form DI-2000) for this trip which was signed by Myers
but not dated. The form indicated that Myers was requesting authorization to accept a lunch from the
Idaho State Bar Association valued at $10 and dinner paid by the IEF valued at $25. Shayla Simmons
signed the form as the Authorized Approving Official on January 15, 2002.6

Partner C stated that sometime in early January 2002, he contacted [name redacted] and advised him that
Myers would be attending the IEF on January 16, 2002, and that if [name redacted] wanted to visit with
Myers that this would be a good opportunity to do so. Partner C explained that because [name redacted]
and Myers worked together on [company redacted] issues and because [name redacted] frequently asked
Partner C how Myers was doing, he felt that this would be a good opportunity for [name redacted] to see
Myers. [Name redacted] accepted the invitation and attended the reception that followed the IEF event.

According to Partner C, during the reception, [name redacted] approached Myers and the two spoke for
two to three minutes. During this discussion, for which Partner C was present, [name redacted] told
Myers that the issues with BLM were still pending and that he was not making good progress on
resolving them through the local BLM office. [Name redacted] then asked Myers if he had any

6
 Although this form indicates that both lunch and dinner would be accepted, the lunch line item was subsequently lined out.
This is consistent with Partner C’s recollection that Myers missed the luncheon.
                                                               37
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                                        Case Number: PI-NM-03-0309-I

suggestions on how he might proceed. Myers then suggested that [name redacted] contact one of three
persons at DOI. Partner C stated that during this discussion, he wrote the names of these three persons
down on a “yellow sticky note.”

After reviewing files in his possession, Partner C produced this note. A review of the note disclosed that
the three names written on it were Matt McKeown, Robert Comer, and Rebecca Watson. The note also
states, “DOI names WGM suggested as contacts.” Partner C stated that Myers provided these names to
[name redacted] as “people you may want to talk to” and not as persons who could provide special or
favorable treatment to [name and company redacted since it is an identifier]. Partner C stated that it was
likely that he never conducted any follow-up with any of these persons, and it was likely that [name
redacted] did not as well.

Partner C said that he never asked Myers to take any action on behalf of [name redacted] or [company
redacted since it is an identifier]. He explained that everyone at H&H, including himself, “recognized
Bill’s constraints.” Partner C said that there was an “unstated assumption” that, because of his recusal
issues, Myers would be unable to take any specific action in a matter involving H&H. Given that Myers
could not act, Partner C said it would have been pointless to request that he do so. Partner C also said he
believed it was permissible for Myers to provide [name redacted] with names of other DOI officials to
contact. Partner C said that by doing so, in effect, Myers was simply telling [name redacted] that he could
not be involved in the matter.

[Name redacted] was interviewed and stated that he is a personal friend and consultant of [name
redacted]. [Name redacted] first met Myers in the spring of 2001 while seeking help from H&H in
connection with a dispute [company redacted since it is an identifier] had with BLM involving ESA
issues. In connection with this dispute, [Name redacted] had been served with a “cease and desist” order
by BLM and had been ordered to develop a restoration plan. [Name redacted] said Myers did not do any
work on his case because Myers had left H&H shortly after their first meeting. Myers was replaced by
Partner C.

[Name redacted] said that in mid-January 2002, he was contacted by Partner C and invited to attend the
IEF in Boise. Partner C told [name redacted] that a number of environmental law firms and other
individuals would be present and that Myers was going to speak at the conference. On the day of the
conference, [name redacted] drove approximately two hours to Boise to attend the event. [Name
redacted] said that he was at the conference for approximately one hour, during which time he listened to
Myers and others speak. After Myers spoke, [name redacted] approached him and talked for
approximately five minutes. Except for exchanging greetings, [name redacted] did not recall anything
particular he discussed with Myers. [Name redacted] said that he “might” have talked about ESA issues
and the ongoing problem [Name redacted] was having with BLM. [Name redacted] stated that he was
certain that Myers did not give him any advice during their conversation and did not give him the names
of other DOI officials to contact. [Name redacted] also stated that, to the best of his knowledge, Myers
never intervened in the matter in an attempt to resolve it. [Name redacted] has not had any contact with
Myers since the conference. [Name redacted] noted that he did not travel to Boise solely for the purpose
of attending the IEF. Rather, he also attended meetings concerning a shopping center project in which he
was involved.

A BLM District Manager was interviewed and stated that the dispute with [company name redacted since
it is an identifier] originated from a trespass issue. The BLM District Manager explained that [company
name redacted since it is an identifier] employees had done work on a road that was actually on BLM
land and not on [company name redacted since it is an identifier] land. BLM’s position was that the
                                                    38
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                          Case Number: PI-NM-03-0309-I

roadwork constituted a trespass and also might have negatively impacted endangered species. The BLM
District Manager said that the staff of a Congressman eventually became involved and assisted in
resolving the matter. The BLM District Manager was certain that Myers played no role in the resolution of this
matter.

An attorney, SOL was interviewed and stated that the case between BLM and [name and company
redacted since it is an identifier], began after [name redacted] ranch manager performed work on BLM
property after having been directed by BLM not to do so. Because this work was done near a salmon
stream, BLM was also concerned that it may have been done in violation of the ESA. The attorney stated
that Myers never discussed this case with him and was not involved in it in any way.

When Myers was interviewed, he stated that due to a late change in his schedule, he missed the Idaho
State Bar Association luncheon but was able to address the IEF. Myers was shown a document entitled
“Environmental Forum Speech” that had been identified through a review of documents maintained by his
office. After reviewing it, Myers identified it as the document he used to deliver the speech to the IEF.
He identified the hand-written notes on it as his own writing. Myers stated that as a general practice, his
remarks are prepared prior to the time he departs to deliver a speech by McKeown. Myers then reviews
McKeown’s prepared remarks prior to arriving at the speech location, usually during the course of the
flight there. He said he sometimes makes hand-written comments on the document, or he sometimes
discards it altogether and speaks solely from his own notes. In this case, he used both McKeown’s
prepared remarks and his own notes.

Myers said that approximately 300 people were present for his speech. After he concluded, some of these
individuals made their way to the front of the room and spoke to him personally. One of the people who
spoke to Myers was [name redacted]. Myers explained that [name redacted] serves as a representative of
an Oregon rancher who owns [company redacted since it is an identifier]. Myers stated that he has never
met the owner of [company redacted since it is an identifier] and he was unable to recall his name. Myers
further explained that while he was at H&H, he developed [company redacted since it is an identifier] as
an H&H client through [name redacted]. [Company redacted since it is an identifier] sought the
assistance of H&H after it became involved in a dispute with BLM concerning access to a trail along a
river that borders [company redacted since it is an identifier] land. BLM wanted to restrict access to the
land due to ESA issues. The case did not involve litigation and instead concerned attempts to resolve the
matter through negotiations with BLM. Myers said he spent very little time on this case and it was
instead a “pass-off” to Partner C.

Myers stated that he recalled being “surprised” when he saw [name redacted] at this event and did not
know in advance that he would be attending. Myers assumed that Partner C had invited him. When
asked if [name redacted] presence at this event was unusual, Myers stated that he considered the IEF to be
an event for people from eastern Idaho but noted that Oregon is “not far” from Idaho. Although he had no
specific recollection of a discussion with [name redacted], Myers said that if [name redacted] had
discussed the pending BLM matter with him, he would have tried to “avoid” and “dodge” any specifics.
Myers could not recall giving [name redacted] the names of McKeown, Comer, or Watson. Myers also
stated that he never spoke to McKeown, Comer, Watson, or anyone at BLM concerning this matter, and
he did not know if or how it was resolved. He also stated that he has not spoken to [name redacted] or
Partner C concerning this matter since that date.




                                                      39
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                                    Case Number: PI-NM-03-0309-I

4. March 15, 2002: American Bar Association Conference

When Partner A of H&H was interviewed, he stated that the American Bar Association (ABA) holds its
annual environmental conference every year in Keystone, Colorado, a ski area located approximately 80
miles west of Denver. Partner A stated that he did not attend this conference in 2002.

A review of Myers’ travel documents disclosed that on March 14, 2002, he traveled from Washington,
D.C., to Denver, Colorado. According to Myers’ itinerary, he was to spend approximately two hours at
the Rocky Mountain Regional Office of the SOL before driving to Keystone, Colorado, where he was to
arrive at 5:00 p.m. The itinerary indicated that from 8:00 a.m. to 10:00 a.m. the following morning, a
panel discussion entitled “Meet the Bush Environmental Managers Panel” was to be held.

Partner B, when interviewed, stated that he attended this conference for the sole purpose of seeing Myers
and Sansonetti speak at a panel discussion held on the morning of Friday, March 15, 2002. Partner B was
shown a copy of the description of the panel discussion from Myers’ itinerary. After reviewing it, he said
that he recognized it as the schedule for that day. Partner B recalled that Myers spoke for only about five
minutes, primarily because the others on the panel had “too much to say.”

After the panel discussion, Myers and Partner B went to the ski area at Keystone and spent the rest of the
day skiing.7 Partner B stated that they skied together for some time and then apart for some time, noting
that he and Myers are “different kinds of skiers.” They occasionally rode the chair lift together and also
ate lunch together. Partner B stated that Myers bought his own lunch. During their time together, Partner
B stated that they discussed “families, kids, and nothing.” Partner B stated that no business-related
discussion took place. At the end of the day, they met at Partner B’s car, where Myers insisted on
reimbursing Partner B for half of the $10 parking fee. Partner B said that he accepted the $5 from Myers.
They then left the ski area and Myers returned to Washington, D.C., the following day.

A review of documents maintained by the SOL identified a travel reimbursement voucher submitted by
Myers for this trip. The voucher was in the amount of $1,411.61 and was signed by Myers on March 21,
2002.

Myers was interviewed and stated that he recalled participating in this panel discussion with Sansonetti, at
least two persons from the Environmental Protection Agency, and James Connaughton, the Chairman of
the Council on Environmental Quality. The discussion lasted approximately 60 to 90 minutes. Myers
recalled that Partner B of H&H was present for this meeting and Partner F, a partner in H&H’s Denver
office, may have also been present. Myers stated that he did not discuss any specific business matters
with either Partner B, Partner F, or other H&H officials during this trip. It was not necessary to complete
a DI-2000 form for this trip, Myers said, because the ABA was not paying for any of the expenses
associated with it.

5. September 27, 2002: H&H Retreat

A review of Myers’ travel vouchers identified an itinerary for a trip to Vail, Colorado, in September 2002.
According to the itinerary, Myers was to fly to Colorado on the evening of September 26, 2002. On
September 27, 2002, he was to participate in a panel discussion with Sansonetti entitled “Doing Business

7
  As a Presidentially-appointed, Senate-confirmed employee, Myers does not accrue annual leave. Rather, he takes personal
time at the discretion of the Secretary but must remain in contact with DOI at all times. Accordingly, Myers would not have
been required to submit a leave form for this activity.
                                                                40
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                                          Case Number: PI-NM-03-0309-I

in Washington” at H&H’s annual partnership meeting and then return to Washington, D.C., the following
day. The itinerary indicated that the hotel accommodations, as well as a dinner on the evening of
September 27, were to be paid for by H&H.

A review of documents maintained by the SOL identified a “Report of Payment Accepted from a Non-
Federal Source Under 31 U.S.C. §1353” form (Form DI-2000) for this trip, which was signed by Myers
on September 25, 2002. The form indicated that Myers was requesting authorization to accept payment
from H&H for the hotel accommodations, valued at $340, and the dinner, valued at $68, for a total cost of
$408. Myers’ itinerary for this trip was attached. Shayla Simmons signed the form as the Authorized
Approving Official on September 26, 2002.

When Partner A was interviewed, he stated that H&H has held its annual partnership meeting in Vail,
Colorado, for a number of years. He recalled attending the 2002 meeting and estimated that
approximately 115 persons attended. Partner A recalled that both Myers and Sansonetti accepted
invitations to speak on working in Washington, D.C. Sansonetti spoke on the organizational structure of
DOJ and the Environment and Natural Resources Division, in part using an organizational chart. Myers
did the same for DOI. Partner A said that Myers identified his deputies and the divisions in which they
worked and also addressed the types of issues that each division in his office deals with.

When Partner B was interviewed, he stated that he attended this meeting in Vail, Colorado. He recalled
that Myers and Sansonetti both participated in a panel discussion and discussed their respective areas of
jurisdiction. Myers specifically spoke about the ESA, the CWA, National Environmental Policy Act
matters, and issues concerning roads on public lands. Partner B recalled that he also made a remark on
the large amount of time he spent on the Indian Trust litigation. Partner B said that after the discussion,
Myers and a number of the firm’s partners had dinner. Myers spent the night and then left the following
morning. Partner B stated that although he was not involved in making the dinner or lodging
arrangements, he was confident that H&H paid for both. Partner B stated that at dinner, each of the H&H
partners was presented with a fleece vest as a gift. The vests were paid for by the firm. At that time,
Partner B told Myers that he had one for Myers as well and asked Myers if he could accept it. Partner B
recalled that in response, Myers asked him what it was worth. After some additional discussion, Myers
accepted the vest. Partner B recalled that shortly thereafter, Myers sent him a check to cover the cost of
the vest. Partner B said that he turned the check over to the firm after receiving it and he was “sure” that
it had been cashed.

According to Partner C, both Myers and Sansonetti were invited to this event in order to speak on the
topic of practicing law within the federal government in Washington, D.C. Partner C stated that Myers’
speech was a variation of the speech he gave in January 2002 to the IEF and was a general overview of
how he spends a typical day. Myers also identified his staff members and the positions to which they are
assigned. Partner C recalled that he saw Myers in the lobby of their hotel the morning before he left, and
he specifically recalled seeing the fleece vest that Myers had been given the night before still in the plastic
wrapper in which it had been given to him. When Partner C questioned Myers about the vest, Myers told
him that he wanted to check with the DOI Ethics Office before he accepted it.

A review of documents maintained by the SOL identified an October 9, 2002 letter from Myers to Partner
B. In this letter, Myers advised Partner B that upon returning to Washington, D.C., he consulted with the
DOI Ethics Office concerning the vest. They advised him that because the vest exceeded $20 in value, he
was required to either pay for the vest or return it. Myers advised Partner B that he had chosen to pay for
the vest. A copy of a $35 check issued on Myers’ personal checking account made payable to H&H was
attached to the letter.
                                                      41
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.                                                       Case Number: PI-NM-03-0309-I


Partner D, of H&H confirmed that this check was negotiated by H&H.

When DOI Deputy Chief of Staff Sue Ellen Wooldridge was interviewed, she stated that she and Brian
Waidmann, Chief of Staff, are responsible for reviewing and approving the travel reimbursement
vouchers submitted by high-level DOI employees. [Name redacted and referred to as a “Staff Assistant”]
of her office assists in this process. Wooldridge stated that in approximately September 2002, her Staff
Assistant approached her with the voucher that had been submitted by Myers in connection with the Vail
trip and told Wooldridge that she was concerned that it created a “potential appearance problem.”
Wooldridge stated that after reviewing the voucher, she learned that Myers had flown to Colorado to
speak to H&H on the subject of doing business with federal officials. Wooldridge stated that she was
concerned about the nature of this trip because some might conclude that Myers was meeting with his old
firm and giving them “inside information.” While considering this issue, Wooldridge learned that Tom
Sansonetti, also a former H&H attorney, had also gone on this trip, and she therefore decided to contact
DOJ to determine how they handled Sansonetti’s reimbursement. Wooldridge noted that she wanted to be
certain that she was not being “hypersensitive” to this issue. After speaking to a senior member of
Sansonetti’s staff, she learned that Sansonetti was not being reimbursed for the expenses he incurred for
the Vail portion of his trip. Wooldridge stated that she also discussed the matter with Shayla Simmons,
who told her that Myers had advised her office of the trip, and after reviewing the circumstances of it, she
had approved the trip. Wooldridge recalled that after discussing the situation with Simmons, Simmons
understood Wooldridge’s concerns that even though the trip was technically acceptable under the ethics
regulations, it did potentially create an appearance problem. Based upon this information, as well as her
own judgment, Wooldridge concluded that it would be inappropriate for Myers to receive U.S.
government reimbursement for his trip to Vail.

When Wooldridge discussed the reimbursement issue with Myers, he told her that he felt that he should,
in fact, be reimbursed for his expenses. Myers told Wooldridge that he would have spoken on the same
topic to any law firm that asked him to do so and that this was not any kind of special favor for H&H. In
addition, said Myers, he spoke on very general topics, to include the role of the SOL at DOI and how the
DOI and DOJ interact. Myers said that, most importantly, his participation in the event had been
approved by the DOI Ethics Office. Wooldridge recalled that Myers felt that because he had complied
with all applicable ethics guidelines, including revealing the purpose of the trip and consulting with the
DOI Ethics Office, he should be reimbursed for the trip.

Wooldridge told Myers that while she understood and agreed that he had properly handled the situation,
she felt strongly that given his high-profile position, reimbursement “doesn’t look right” and he should
“eat” the cost of the trip. She then told Myers that if he felt that it was proper to be reimbursed that she
would approve his voucher, despite her misgivings. “I gave him a choice,” stated Wooldridge. Myers
then told her that he would not submit the voucher for reimbursement and that he would cover the cost of
the trip with personal funds. Wooldridge added that she also discussed this issue with Brian Waidmann,
Chief of Staff, DOI, who concurred. Waidmann also discussed it with Myers.

A review of documents maintained by the SOL identified a February 4, 2003 memorandum from the
Division of Administration, SOL, to DOI’s National Business Center. The memorandum requested that
the charges associated with the Vail trip, which included airfare and rental car costs and totaled $1,978.55,
be reallocated so that Myers would be personally responsible for them. This review also identified a
February 11, 2003 handwritten note from Myers to Partner A of H&H transmitting a cashier’s check in
the amount of $408 to the firm. In this note, Myers wrote, “My ethics office provided review and
approval for acceptance of room and board prior to my departure. Upon my return, other officials decided
                                                     42
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                                          Case Number: PI-NM-03-0309-I

my attendance at the meeting could give rise to an appearance of impropriety. To be on the safe side, I
hereby reimburse the firm.”

Partner D, of H&H confirmed that this check was also negotiated by H&H.

When Myers was interviewed, he stated that he recalled attending this meeting and speaking on the topic
of the federal administrative process. Myers said that he did not discuss any specific cases or matters that
involved H&H or his former clients. Myers said that due to some last-minute changes to his itinerary, the
air fare was expensive. After returning from the trip, a federal travel reimbursement voucher was
completed so that Myers could be reimbursed for the expenses he incurred. Myers stated that while the
voucher was in the approval process, Wooldridge raised questions about the “appearance” problems it
raised. Myers said that while he understood Wooldridge’s point of view, he told her that the trip had been
approved by the DOI Ethics Office. Myers said that Wooldridge nonetheless felt that it would not be
appropriate for Myers to accept reimbursement for this trip.

Myers subsequently discussed the issue with Tim Elliott of the SOL, who was “somewhat incredulous”
that Myers would not be reimbursed for the trip. Myers stated that after further consideration, he decided
to “err on the side of caution” and pay for the trip himself, despite the fact that it seemed to be “unfair”
given that he had received clearance for the trip. Myers reimbursed H&H $408 for lodging and meal
expenses and had the remaining $1,978.55 charged back to his government credit card, an amount which
he subsequently paid with personal funds.

Elliott said that he was surprised to learn from Myers that Wooldridge had suggested that he not be
reimbursed for this trip. He stated that in his view, Myers’ attendance at this event did not create an
appearance problem and there was no law or regulation that prohibited it. He also stated that he was
surprised that Wooldridge’s objections to the reimbursement centered on appearance issues. Elliott stated
that although Myers did not ask him to do so, he did discuss the matter with Wooldridge. Although she
listened to his argument, she ultimately dismissed it. When questioned about the difference between his
own advice and the advice of Wooldridge, Elliott stated that “they pay [Wooldridge] to do appearances;
they pay me to do the law.”

A review of e-mail messages maintained by the SOL identified a January 28, 2003 e-mail message from
Myers to the EA. In this message, Myers wrote, “I want to get Sue Ellen’s approval on my travel to
Wyoming ASAP.”

When Myers was interviewed, he stated that in early 2003, he was scheduled to travel to Grand Teton
National Park in Wyoming to meet with National Park Service officials and to meet with a Wyoming
rancher on issues concerning wolf reintroduction. Myers stated that he wanted to ensure that Wooldridge
would approve of this trip prior to the time that he took it. Myers said that he assumed that if Wooldridge
approved the trip in advance, he would not have to later pay for it with personal funds. Myers stated that
this was a practice that he instituted after the Vail, Colorado, trip and that Wooldridge’s review was
separate and apart from the normal review of the DOI Ethics Office. He stated that Wooldridge did
approve this trip.

6. January 8, 2003: Meeting with H&H Attorney

A review of Myers’ appointment calendars disclosed that on January 8, 2003, from 12:00 p.m. to 12:30
p.m., he was scheduled to meet with [name redacted and referred to as an “H&H attorney”] for a “hello.”

                                                     43
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                       Case Number: PI-NM-03-0309-I

An attorney, H&H, Denver, Colorado, was interviewed and stated that in late December 2002 or early
January 2003, he telephoned the EA to schedule a meeting with Myers. The attorney explained that at
that time, he represented a Nevada mining company. The H&H attorney wanted to facilitate a meeting
between the Nevada mining company officials and Myers and other DOI officials to discuss a matter of
interest to the mining company. He stated that after his initial discussion with the EA, he called him to
obtain more information concerning the exact nature of the meeting, including the specifics of the matter
to be discussed. The H&H attorney then provided this information to him. Subsequently, the EA again
telephoned the attorney and advised him that due to ethics concerns, about which Myers had to be
“careful,” Myers would be unable to meet with him and his clients. The EA told him that Myers would
arrange for him to meet with another official from the SOL.

The attorney stated that he and the mining company officials arrived at the Main Interior Building at the
scheduled time on January 8, 2003, and were escorted to Myers’ office. The H&H attorney said that
while Myers was there, he met with them briefly and they introduced themselves and “talked about the
weather.” Myers then escorted them to the SOL conference room, where they subsequently met with
someone else from the SOL, whom the attorney could not identify. He stated that Myers did not
participate in the meeting that ensued and instead was present only for the “very minimum courtesy”
discussion upon their arrival. The H&H attorney estimated that the meeting with the SOL officials lasted
between 60 and 90 minutes, while their time with Myers lasted “maybe” five minutes.

The H&H attorney stated that [information that would identify the attorney was redacted] and was
familiar with the ethical requirements to which Myers had to adhere. The H&H attorney stated that in his
view, Myers’ actions were “annoyingly” and “excessively cautious” and that by declining to meet with
him and his clients, Myers “went well beyond” any steps that [information that would identify the
attorney was redacted].

The review of e-mail messages maintained by the SOL identified a January 4, 2003 e-mail message from
Myers to his EA in which he wrote that Tim Elliott of the SOL had stated that some type of clearance was
required from the DOI Ethics Office before he could meet with H&H officials on January 8, 2003.

Myers recalled that prior to meeting with the H&H attorney, he discussed the meeting with Tim Elliott,
who advised him that that if he was going to meet with the H&H attorney, he should probably obtain
permission to do so from the DOI Ethics Office. Elliott explained to Myers that even though it was
technically appropriate under his ethics agreement to meet with the H&H attorney, to avoid the
appearance of a conflict of interest, he should have the meeting approved.

Myers stated that a draft approval memorandum was prepared by an attorney of the SOL, but never
finalized. Because this approval never became final, Myers stated that he did not attend this meeting and
Fred Ferguson of the SOL attended in his place. Myers stated that the mining company was not a former
client of his, and he did not know why it was that the H&H attorney and the mining company wanted to
meet with someone from the SOL. Myers also noted that when the entry “hello” appears on his calendar,
it indicates that the meeting was not substantive and was instead a “meet and greet.” Myers said that he
met briefly with the H&H attorney before the meeting as a courtesy [name and information which would
identify the attorney was redacted].

7. June 9, 2003 – August 2003: Employment Negotiations with H&H

A review of e-mail messages maintained by the SOL identified a June 9, 2003 message from Myers to
Hugo Teufel and Edward Keable of the SOL. In this message, Myers wrote that he “may soon contact or
                                                    44
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                          Case Number: PI-NM-03-0309-I

have others contact non-governmental organizations and individuals regarding … their assistance in my
efforts to obtain Senate confirmation of my judicial nomination and/or employment. I wish to avoid an
appearance of conflicts of interest in the event that I know that these entities have business before the
Office of the Solicitor.”

When Shayla Simmons was interviewed, she stated that sometime in early or mid-June, she and Elliott
and Teufel of the SOL met with Myers at his request. After reviewing her appointment calendar,
Simmons stated that this meeting most likely occurred on June 9, 2003. During this meeting, Myers
advised them that, although he had not yet done so, he was considering resigning from his position as
Solicitor and accepting employment with H&H or some other private law firm. Myers then asked
Simmons, Elliott, and Tuefel if he needed to take any steps to ensure that this activity was acceptable
under the ethics rules and guidelines. Simmons stated that she and the others agreed that it would be
appropriate for Myers to recuse himself from any matters dealing with H&H and she and Elliott drafted a
recusal memorandum to this effect. Simmons had no notes from this meeting.

The review of Myers’ ethics file identified a June 17, 2003 memorandum to the Deputy Solicitor and
others within the SOL. In this memorandum, Myers wrote that “Until further notice, any matter relating
to Holland & Hart or in which Holland & Hart has an interest must be sent to and reviewed by the
Division of General Law, which will decide whether the matter may be brought to my attention.”

When Tim Elliott was interviewed, he stated that he did not have a good recollection of the specific
discussion that took place during the early June meeting with Myers. However, he did recall that the
meeting was requested by Myers and concerned his decision to seek other employment. Elliott said that
he likely advised Myers that it would be necessary to prepare a recusal memorandum given that the
situation certainly created a potential conflict of interest. Elliott stated that although he probably reviewed
the June 17, 2003 recusal memorandum, he did not help to prepare it.

When Partner D, was interviewed, he stated that on June 10, 2003, he was copied on an e-mail message
from Partner B to Partner A that discussed the possibility of H&H re-hiring Myers in the Boise, Idaho,
office. This message also indicated that a conference call was to be held on June 11, 2003, to discuss the
matter.

Partner D stated that the conference call was held on June 11, 2003, and was attended by himself, Partner
B, Partner A, and an attorney of H&H’s Boise office. Partner D stated that either during this call or a
related one, he learned that Myers had apparently contacted Partner B during the first week of June
concerning potential employment. Subsequent to the conference call, Partner D and Myers had several
telephone discussions in which they discussed the terms and conditions of his potential employment,
including salary, contract terms, and other issues.

On or about June 25, 2003, Partner D provided a final proposal to Myers. At that time, Partner D advised
Myers that he would be on vacation for two weeks and that if Myers wished to further discuss the
proposal, he should contact Partner A. Partner D noted that he later learned that Myers did not contact
Partner A during this period. Partner D stated that under the proposed agreement, Myers was given a
choice of a salary and no money for relocation expenses or a lower salary and an “advance” of $10,000 to
cover these moving expenses.

Approximately ten days after Partner D returned from vacation, Myers contacted Partner D and advised
that he would accept the terms and conditions of the employment agreement and would accept the lower

                                                      45
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                         Case Number: PI-NM-03-0309-I

salary and the $10,000 for moving expenses. Partner D stated that on or about July 17, 2003, he received
a signed employment agreement from Myers. Partner D then signed the agreement and it became final.

Partner B’s recollection of the circumstances surrounding the rehiring of Myers was somewhat different
from Partner D’s. Partner B recalled that he received an e-mail message from Partner A at about this time
to let him know that Myers was seeking re-employment with H&H. After reviewing his e-mail records,
Partner B stated that he received this message on the afternoon of June 9, 2003. Partner B said that he
received this message because if Myers was to return, he would be working in a division that Partner B
was responsible for overseeing. Partner B was confident that Myers never directly discussed the notion of
a return to H&H with him.

Myers stated that he recalled convening a meeting with Simmons, Elliott, and Art Gary of the DOI Ethics
Office in which he advised them that he was seeking employment with a private law firm, most likely
H&H. Myers stated that he wanted to contact H&H about such potential employment but wanted to avoid
any contact that would appear to be inappropriate. He therefore asked Simmons, Elliott, and Gary, along
with Bob Moll and the General Law attorney of the SOL, to meet in his office to discuss the matter. At
the conclusion of their discussion, they agreed to write a recusal memorandum that would properly
address the situation and allow him to contact H&H. Myers estimated that this meeting occurred on or
about June 10, 2003. Myers stated that at the same approximate time as his meeting with Simmons and
the others, he telephoned Partner A of H&H and expressed his interest in returning to H&H. Myers said
that these two events occurred “almost simultaneously,” although the discussion with the ethics staff
likely occurred prior to the telephone call to Partner A.

Myers said that he subsequently had at least one additional discussion with Partner A concerning this
prospective employment. He also talked to the attorney of H&H’s Boise office as a courtesy because
Myers wanted to return to the Boise office. Both the Boise office attorney and Partner A advised Myers
that it would be appropriate for him to contact Partner D to pursue his interests.

Myers then had “two or three” discussions with Partner D on the subject of re-employment with H&H
during which they discussed the specifics of his potential return. After reviewing notes in his possession,
Myers stated that one of his discussions with Partner D occurred on June 19, 2003. Myers stated that
during one of these discussions, perhaps this one, he suggested to Partner D that they could potentially
“dust off” Myers’ previous H&H employment agreement and use it as a basis to draft an updated
agreement.

Myers stated that after a few weeks passed and he had not heard from Partner D or received a draft
employment agreement from him, he prepared his own draft agreement and sent it to Partner D. This
occurred on July 17, 2003.

A review of documents maintained on Myers’ DOI computer identified this version of the agreement and
confirmed that it was dated July 17, 2003.

Myers stated that Partner D subsequently provided his own agreement to Myers, and it was finalized.

A review of this agreement disclosed that it was signed by Myers on July 31, 2003, and signed by Partner D on
August 4, 2003. The review also disclosed that the agreement provides for moving expenses for Myers as
described by Partner D. Specifically, the document states, “H&H will pay for Counsel’s moving expenses from
his current Washington, D.C., residence to Boise, Idaho, up to a maximum of $10,000.”

                                                      46
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                                              Case Number: PI-NM-03-0309-I

Myers stated that during the course of the negotiations with Partner D, he accepted the lower salary and up to
$10,000 in moving expenses because he did not have the funds to move his family back to Boise, Idaho. Myers
said that he is responsible for paying any moving expenses in excess of $10,000. He also stated that he is to
receive no other benefits from H&H in connection with his move to Boise. For example, H&H will not pay any
mileage or per diem costs associated with the move. Myers stated that his household goods were picked up
during the week of August 25, 2003, and arrived in Boise during the week of September 8, 2003.

Myers said that although he consulted with the DOI Ethics Office prior to initiating employment discussions
with H&H, he did not specifically consult with that office on the subject of his receipt of moving expenses
because he did not think it was necessary to do so. Myers stated that he therefore did not advise Simmons or
others at the early June 2003 meeting that he was to receive up to $10,000 in moving expenses. Myers also said
that on September 15, 2003, he met with Simmons and Gary to discuss an unrelated matter. At the conclusion of
this meeting, Myers asked them if there were any other steps he needed to take relative to his re-employment
with H&H, and they advised him that there were none. Myers said that he did not mention the $10,000 to them
at this time either, again because he did not think that it was necessary to do so.

When Simmons was interviewed, she confirmed that Myers never advised her that under the terms of the
employment agreement, he was to receive up to $10,000 in moving expenses. When questioned about the
receipt of this financial benefit, Simmons stated that although she did not know if it was proper for Myers to
receive it, she did know that he would be required to report this benefit on his next financial disclosure form.

[Name redacted and referred to as “an employee of H&H,”] Denver, Colorado, was interviewed and stated that
he is responsible for making arrangements to move new H&H employees to their assigned duty location. In
connection with these duties, this employee makes arrangements with a moving company to move the
employee’s household goods. After the move is completed, the moving company sends an invoice to H&H and
the employee and payment is issued to the moving company directly by H&H. The H&H employee said that the
employee is not involved in this process and does not see or receive the invoice, nor does the employee make or
receive any type of payment. The employee stated that he made similar arrangements for Myers in August 2003.
He stated that the moving company picked up Myers’ belongings in late August and delivered them to his
residence in Boise, Idaho. As of October 1, 2003, the employee had not yet received an invoice from the moving
company, and he therefore did not know what the final price of the move was. However, he recalled that the
original estimate from the movers, which was based on the estimated weight of the items to be moved, was
approximately $9,900.

The employee stated that in mid-September 2003, he was telephoned by Myers, who directed him to send the
invoice directly to him rather than issue payment from H&H. The H&H employee said that Myers told him that
rather than having H&H issue payment to the moving company that he would personally issue the payment.
Myers also told the H&H employee that once Myers arrived in Boise and was an H&H employee, he would seek
reimbursement for this amount. “Once he’s on board, we’ll reimburse him,” stated the H&H employee. The
H&H employee stated that Myers told him that he wanted the payment to be made in this manner because he
was still an employee of DOI and did not want to create the appearance of impropriety. He said that Myers
indicated that it may not be proper for him to receive a benefit from H&H while he was still a DOI employee.

Like the H&H employee, Myers stated that it is standard H&H practice for the invoice from the moving
company to be sent directly to the firm’s office in Denver. H&H then issues payment to the movers. According
to Myers, this same practice was to be followed in his case.

Subsequent to the time he was interviewed by the OIG on September 18, 2003, Myers advised us that he had
directed H&H to send the invoice directly to him so that he could personally issue payment. Myers stated that
                                                         47
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                            Case Number: PI-NM-03-0309-I

pursuant to his employment agreement, he intends to seek reimbursement for these expenses once he is no longer
a DOI employee.

A review of documents provided by Myers identified a September 24, 2003 “Invoice Detail” for Myers’ move.
H&H is listed as the customer on this invoice, and Myers is listed as the transferee. The total cost of the move
was $10,071.60. This review also identified a credit card authorization form from Graebel Companies, the
moving service. This form indicates that Myers authorized Graebel to charge the cost of the move to his VISA
credit card. Myers signed this form on October 8, 2003.

Three Meetings Concerning the National Mining Association

In the second letter to OGE, dated October 2, 2003, PEER and FOE make additional allegations against Myers.
In this letter, PEER and FOE identified three contacts that Myers had with the National Mining Association
(NMA) that occurred between July 30, 2001, and October 19, 2001. These three contacts, which all occurred
within Myers’ one-year recusal period, are identified in Figure 5.

                                                    Figure 5




According to the second PEER and FOE letter, the NMA was a former client of Myers.

However, a review of H&H billing records disclosed that the NMA was not a client of Myers while he
was at H&H.

Through interviews and record reviews, the following information was identified concerning each of these
three meetings and Myers’ alleged work for the NMA.
                                                       48
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                                     Case Number: PI-NM-03-0309-I


Partner B of H&H stated that in 2000, H&H represented the NMA, The Peabody Group, and Kennecott
Energy Corporation in an effort to seek the passage of legislation that would expand the federal acreage
that a coal company was permitted to mine. Partner B stated that this legislation was introduced in both
the House (H.R. 4298) and Senate (S. 2300) in the spring of 2000. Partner B said that Sansonetti and
Myers performed the “principal” work on this matter. Specifically, they both obtained background
information on the matter, prepared briefing papers, and met with some legislators, all in an effort to have
the legislation passed.

Partner B explained that lobbying rules required H&H to register with Congress at the time the lobbying
begins and report on their lobbying activities. Accordingly, he and Sansonetti completed the appropriate
forms and filed them in Washington, D.C. Partner B stated that Peabody and Kennecott were the two
companies that originally sought the help of H&H in working to see that this legislation was passed.
Subsequently, the NMA also became interested in the issue, and thus H&H worked for them on the matter
as well. The legislation was passed during the 2000-2001 session of Congress, and as a result, H&H did
no further work concerning it. Partner B said that he filed the appropriate lobbying termination forms at
the end of 2000 or in early 2001.

A review of information maintained by the U.S. Congress disclosed that S. 2300, known as the Coal
Market Competition Act of 2000, was introduced in the Senate on March 28, 2000. The bill was to
amend the Mineral Leasing Act to increase the maximum acreage of federal leases for coal that may be
held by an entity in any state. Hearings on the bill were held before the Committee on Energy and
Natural Resources in June 2000. The bill was passed on October 23, 2000, and was signed by the
President and became Public Law No. 106-463 on November 7, 2000. H.R. 4298 was the identical
version of the Senate bill introduced in the House.

A review of documents maintained by H&H identified a December 28, 1999 letter from Sansonetti to the
Clerk of the U.S. House of Representatives and the Secretary of the Senate. Attached to this letter were
three Lobbying Registration forms (Forms LD-1) that identified lobbying activity by H&H on behalf of
Kennecott, Peabody, and Arch Coal, Inc (Arch). Each of these three forms was signed by Sansonetti on
December 22, 1999, and identified himself, Partner B, and Myers as being persons who had acted or who
were expected to act as a lobbyist for these three clients. According to the forms, the lobbying issues
concerned “Potential legislation to raise the acreage limitation on federal coal leases” and “Potential
legislation to resolve conflicts between coal bed methane federal lessees and federal coal lessees in the
Powder River Basin in Wyoming.”

This same review also identified an August 17, 2000 letter from Sansonetti to the Clerk of the U.S. House
of Representatives and the Secretary of the Senate. Attached to this letter was a Lobbying Registration
form that identified lobbying activity by H&H on behalf of the NMA. This form was signed by
Sansonetti on August 17, 2000, and identified himself, Partner B, and Myers as being persons who had
acted or who were expected to act as a lobbyist for this client. According to the form, the lobbying issue
concerned “Legislation to raise the acreage limitation on federal coal leases, S. 2300 and H.R. 4298.”8

A review of documents maintained by the Secretary of the Senate identified two Lobbying Report forms
(Forms LD-2) filed by Partner B on August 11, 2000, that covered the period January 1, 2000, through
June 30, 2000. These forms reported that H&H had received $60,000 from both Kennecott and Peabody

8
  This is consistent with Partner B’s recollection that Kennecott and Peabody initiated this effort, and the NMA became
interested in it at a later time.
                                                                49
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                                        Case Number: PI-NM-03-0309-I

for their lobbying efforts during this period. These forms also reported that Partner B, Sansonetti, and
Myers had acted as lobbyists in this issue area and that the Senate, the House of Representatives, and DOI
were all contacted in this effort.

The H&H document review also identified a December 21, 2000 letter from Partner B to the Clerk of the
House of Representatives and the Secretary of the Senate. Attached to this letter were Lobbying Report
forms for Kennecott, Peabody, and Arch for the period July 1, 2000, through December 31, 2000. Each
of these forms was signed by Partner B on December 21, 2000. The forms show that H&H was paid
$40,000 for its lobbying efforts by each of these three companies during this time period. The forms also
report that Sansonetti, Partner B, and Myers had acted as lobbyists in this issue area and that the Senate,
the House of Representatives, and DOI were all contacted in this effort. These forms also indicate that
H&H’s lobbying efforts for these three companies on the acreage limitation and coalbed methane issues
ended on December 21, 2000.

This same review also identified a January 24, 2001 letter from Sansonetti to the Clerk of the House of
Representatives and the Secretary of the Senate. Attached to this letter was a Lobbying Report form for
the NMA for the period July 1, 2000, through December 31, 2000. This form was signed by Sansonetti
on January 24, 2001. The form suggests that H&H was paid $180,000 for its lobbying efforts by NMA
during this time period. The form also reports that the Senate, the House of Representatives, and DOI
were all contacted in this effort and that H&H’s lobbying effort for the NMA ended on December 31,
2000. This form lists only Sansonetti as being the lobbyist in this issue area.

A review of documents maintained by the U.S. Congress disclosed that on June 7, 2000, Sansonetti
testified before the Senate Committee on Energy and Natural Resources, Subcommittee on Forests and
Public Land Management, concerning the acreage limitation legislation. A review of this testimony
disclosed that it was offered on behalf of the NMA, Kennecott, Peabody, and Arch.

Partner A of H&H was contacted to confirm that H&H had, in fact, been paid by the NMA in connection
with their lobbying efforts on the federal acreage limitation legislation as indicated in the Lobbying
Report filed by Sansonetti on January 24, 2001. Partner A, however, advised that H&H had not directly
billed the NMA for this work and had not directly received any money from the NMA in connection with
this work. Partner A suggested that this work may have been done for Peabody and Kennecott “on behalf
of the NMA,” and that this may be why the NMA was listed on the Lobbying Reports filed by Sansonetti.

A NMA official was interviewed and stated that the NMA had no record of making any payments to
H&H in either 2000 or 2001. He also stated that the NMA did not receive any bills, invoices, or requests
for payment from H&H during this same time period, and that the NMA had no agreements, contracts, or
other arrangements with H&H for the provision of lobbying services for the NMA concerning the federal
acreage limitation legislation. The NMA official further stated that he had “had no idea” why Sansonetti
had registered to lobby on behalf of the NMA on this matter. The NMA official speculated that it was
possible that H&H thought it was appropriate for them to register themselves on behalf of the NMA
because they knew that the NMA and its members were interested in this legislation.

Partner B stated that he was familiar with the Lobbying Report submitted by Sansonetti and H&H on
January 24, 2001, which suggested that the NMA had paid H&H $180,000 for its work on this legislation.
Partner B stated that this report is a “flat mistake” and that the NMA did not pay H&H for this work.
“They never paid a dime to us,” Partner B said. Partner B stated that he thought that the $180,000 figure
represented the total amount that Kennecott, Peabody, and Arch, the three client companies that were

                                                    50
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                                                 Case Number: PI-NM-03-0309-I

interested in this legislation, had paid to H&H.9 Partner B stated that he was responsible for reviewing
the billings issued by H&H for this work and was certain that the NMA had not been billed.

Partner B explained that even though the NMA did not pay H&H to lobby in support of this legislation,
the NMA was interested in seeing that it passed. He explained that the NMA lent its name and
organizational support to the lobbying effort that was being pushed and paid for by the three companies.
Partner B stated that because the NMA wanted H&H to identify its name and organization as being
supportive of the legislation, H&H filed a Lobbying Registration form indicating that H&H intended to
lobby on behalf of the NMA. Partner B stated that the form was filed in order to be “above board” and
name all parties that were interested in the legislation, even though not all parties were paying H&H.

Sansonetti was interviewed and stated that he personally did the majority of the work on this lobbying
effort for H&H and Myers performed no work on it. Sansonetti said that Kennecott, Peabody, and Arch
were the three companies primarily interested in this legislation, given that their mines were being
affected most immediately by the acreage limitation law. These three companies were also the ones who
paid for H&H’s lobbying efforts.

Sansonetti was shown a copy of the testimony he gave on June 7, 2000, in support of this legislation to
the Subcommittee on Forests and Public Land Management of the Senate Committee on Energy and
Natural Resources. After briefly reviewing this testimony, Sansonetti stated that he recalled giving it.
Sansonetti was advised that when beginning his testimony, he stated that he was giving it on behalf of
Arch, Peabody, Kennecott, and the NMA. When questioned, Sansonetti stated that he did not know why
he had stated that his testimony was being given on behalf of the NMA. However, he said that it was
possible that H&H had asked the NMA if it would be allowable to state that the testimony was being
given on behalf of the NMA in order to indicate to the Committee that the NMA, and therefore the coal
mining industry in general, supported the legislation. Sansonetti was unable to recall if he ever met with
anyone from the NMA to discuss this testimony or the NMA’s support of the legislation. However, he
said that it was possible that such meetings did take place given that the NMA wanted to be associated
with the legislation, particularly after it became apparent that it would become law. He also said that the
NMA has its own lobbyists and would not have likely hired H&H or some other firm to conduct this
lobbying.

Sansonetti was shown the Lobbying Report form submitted by H&H on January 24, 2001, which suggests
that H&H was paid $180,000 by the NMA for its work on this lobbying effort. After reviewing the form,
Sansonetti identified the signature on it as his own. He stated that he did not know why it was submitted,
given that it was his recollection that the NMA paid H&H nothing for this work. Sansonetti stated that it
was likely that this form listed the NMA as having paid H&H, rather than Kennecott, Peabody, and Arch,
due to a “secretarial mistake.” Sansonetti also said that he “should have caught” the mistake when
signing the form, but did not.

Myers said that he did work on this federal acreage limitation lobbying effort. However, all of his time
was billed to Peabody and Kennecott, and no hours were charged to the NMA. Even though he was
registered to lobby on behalf of the NMA and even though his work for Peabody and Kennecott involved
the same subject matter as the work that Partner B and Sansonetti were doing for the NMA, none of his
time was actually billed to NMA. In fact, said Myers, he did not bill any time to the NMA during his
tenure at H&H.

9
 According to the Lobbying Report forms filed by H&H, the total amount paid to the firm by Kennecott, Peabody, and Arch
for this lobbying effort actually sums up to $240,000.
                                                           51
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                          Case Number: PI-NM-03-0309-I


A review of H&H billing records confirmed the statements of Myers relative to the clients to which his
work on this legislation was billed. The review also confirmed that Myers never billed time to the NMA.

Myers recalled that in connection with his work on this matter, he visited Washington, D.C., at least once
and met with the staffs of several Members of Congress. He also met with Peabody and Kennecott
officials to obtain background information on the topic from them and to prepare briefing papers on the
subject. Myers said that he coordinated his efforts with Partner B and Sansonetti, as well as a lobbyist for
Peabody.

Myers stated that this legislation did not affect every mining company and therefore not all mining
companies were interested in it. Peabody and Kennecott were involved and therefore sought help in
passing the legislation. Myers said that he “assumed” that the NMA was also interested in the topic,
given that some of its members were involved. Myers said that he may have participated in one telephone
conference call on the subject in which the NMA official also participated. Myers said that he could not
recall ever participating in any other discussions with anyone else from the NMA on this topic.

Sansonetti and Partner B were also on this call. Myers said that he had no recollection of ever meeting
with anyone from DOI on this topic. However, he said that when hearings on the legislation were held,
Pete Culp, a BLM official, testified at them in support of the legislation. Myers said that Sansonetti may
have met with Culp on this topic, given that he probably knew Culp from their time together at DOI.
Myers also said that he knew that the appropriate lobbying reporting forms had been completed and
submitted, but he played no role in this process.

Myers said that because the legislation was passed in October 2000, he would have likely stopped doing
work on the matter after that time. If he did charge time to it after that date, it would have only been to
close out the H&H file on the matter. Myers said that this was the only work he ever did for either
Peabody or Kennecott.

According to Partner A of H&H, Myers last billed Kennecott on November 27, 2000, and last billed
Peabody on December 7, 2000.

1. July 30, 2001: Review of NMA Invitation with Elliott and the EA

A review of Myers’ appointment calendar disclosed that on July 30, 2001, he was scheduled to meet with
Elliott and his EA concerning an invitation he had received from the NMA.

The EA stated that he attended this meeting and it was held in Myers’ office. He explained that in late
July 2001, Myers had received an invitation from the NMA to speak at an event it was sponsoring in
October 2001. The invitation, which Myers originally received by fax, asked him to deliver a keynote
address. After receiving it, Myers asked the EA to contact Elliott and schedule a meeting to discuss the
invitation and the proper way to respond to it. Myers assumed that he would receive many additional
invitations like this one, and he therefore wanted to discuss both this specific invitation as well as others
that he anticipated receiving.

The invitation had indicated that the NMA was willing to pay for some of the expenses associated with
Myers’ travel to this event, and Myers also wanted to discuss with Elliott the circumstances under which
he could accept these offers on behalf of DOI. The EA said that he was not able to specifically recall
exactly what it was that Elliott told Myers concerning these issues, although he did recall that Elliott was
                                                      52
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.                                                       Case Number: PI-NM-03-0309-I

shown the invitation during the course of the meeting. He also recalled that Myers asked Elliott if there
was any reason not to accept the invitation, and Elliott advised Myers that there was not. The EA said
that he did not keep a copy of this invitation.

After the meeting, the EA prepared a DI-2000 form for the trip and submitted it to the DOI Ethics Office.
He said that he had no discussions with that office about the form. Rather, after receiving it, the office
telephoned him and advised that it had been approved, and he then picked it up from them. During the
interview he was shown a copy of this form and identified the handwriting on it as his own.

Elliott said that he recalled attending this meeting and that during it, he likely outlined the rules that
Myers had to consider when deciding whether or not to accept the invitation and others like it. Elliott
recalled that Myers was concerned that the trip may appear improper if he accepted the NMA’s offer to
pay for all expenses associated with the trip. “He didn’t want the whole thing to be paid by them,” said
Elliott. Elliott said that either he suggested or Myers understood from their discussion that it would be
proper to accept some but not all of the NMA’s offers of payment. Elliott stated that he did not have a
distinct recollection as to whether or not Myers asked him if it would be appropriate for him to attend the
event. However, he said that if Myers had raised the question, he would have considered it and likely
advised Myers that he could attend the event as long as he recognized that he was there to represent DOI
and discuss general policy issues and not get “trapped” into discussing specific cases or making
commitments or promises on particular matters.

Myers said that he had no specific recollection of this meeting or the discussion that took place during it.
He noted that this was within the first week of his arrival at DOI.

2. August 3, 2001: Meeting with an official of the National Mining Association

A review of Myers’ appointment calendar disclosed that on August 3, 2001, he was scheduled to meet
with [name redacted and referred to as “an official of the NMA.”]

The NMA official was interviewed and stated that he did meet with Myers on or about this date. The
NMA official said that he requested this meeting, it was held in Myers’ office, and no one else attended.
The NMA official said that he requested the meeting in order to introduce himself and his organization to
Myers, given that he had not previously met Myers. The NMA official had no recollection of
participating in a telephone conference call with Myers concerning lobbying efforts on the federal acreage
limitation law; although he said that it was possible that he did participate in such a call. The NMA
official stated that he participates in numerous such calls and it was possible that Myers was at one time
on one of them. The NMA official stated that his discussion with Myers did not concern any specific
matters and instead was more of a “here’s who we are” discussion. The NMA official stated that he was
confident that no discussion concerning the acreage limitation law occurred because the matter had been
resolved when the law was passed by Congress. The NMA official stated that during this meeting, he
probably invited Myers to speak at the NMA’s upcoming legal conference in Key West, Florida. The
NMA official stated that previous DOI Solicitors, including John Leshy and Sansonetti, had addressed the
conference in the past and the NMA therefore wanted Myers to do the same. The NMA official stated
that to the best of his knowledge, Myers has done no legal work for the NMA.

Myers stated that he did meet with The NMA official at some point early in his tenure at DOI. The
meeting was requested by The NMA official, was held in Myers’ office, and lasted about 30 minutes.
Myers said that this was the first time he met The NMA official face-to-face. Myers said that he did not
recall if anyone else attended this meeting on behalf of the NMA, and he did not know if The NMA
                                                     53
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                       Case Number: PI-NM-03-0309-I

official visited other DOI officials while at the Main Interior Building. Myers said that The NMA official
was an industry lobbyist who wanted to stop by his office and introduce himself. “I saw this mainly as a
meet and greet [meeting],” said Myers. Myers stated that he was confident that no discussion concerning
the acreage limitation legislation took place because it was already law, and there was therefore no reason
to discuss it. Myers had no specific recollection of the matters that he and The NMA official may have
discussed. However, he said that given the timing of the meeting, it was possible that they discussed
possible revisions to the hardrock mining regulations as well as matters concerning millsite patents.
Myers stated that he did not seek the authorization of the DOI Ethics Office to participate in this meeting
because the NMA was not a former client of his and he therefore saw no reason to do so.

3. October 19, 2001: National Mining Association Speech in Florida

A review of Myers’ appointment calendars disclosed that on October 19, 2001, he was scheduled to
address the NMA in Florida.

When the NMA official was interviewed, he said that he attended this conference in Key West and was
present when Myers spoke. The NMA official recalled that since this event occurred shortly after
September 11, 2001, there was some question at the time as to whether or not Myers would be able to
attend. He also said that attendance at this event was low for this same reason. The NMA official said
Myers delivered a general speech on public lands issues and did not attend any of the conference events
subsequent to the speech.

A review of documents maintained by the SOL identified a “Report of Payment Accepted from a Non-
Federal Source Under 31 U.S.C. §1353” form (Form DI-2000) for this trip, which was signed by Myers
on October 16, 2001. The form indicated that Myers was requesting authorization to accept lodging for
one night in Key West from the NMA, valued at $170. The Ethics Training Specialist, DOI Ethics
Office, signed the form as the Authorized Approving Official on October 16, 2001.

A review of Myers’ travel voucher for this trip disclosed that Myers stopped in New Orleans, Louisiana,
en route to Key West to visit with MMS officials. Myers did not claim or receive payment for lodging on
the night he spent in Key West. The corresponding trip itinerary confirms that the NMA was to provide
lodging for that evening. The itinerary also shows that from 8:15 a.m. to 9:00 a.m. on the morning of
October 19, 2001, Myers was to give the keynote address to the “2001 Mining Lawyers Conference.”

Myers said that he recalled speaking to a group of mining lawyers at this event. This was a general policy
discussion, and he spoke on issues such as potential revisions to the hardrock mining regulations and the
millsite patent regulations. He did not discuss the legislation affecting acreage that he had lobbied for
given that it had already become law. Myers stated that only approximately 50 persons attended this
event. He noted that this was approximately one month after the events of September 11, 2001, and thus
many persons were unwilling to travel. In fact, Myers said it is his understanding that the NMA no longer
sponsors this event, in part due to the low attendance at the 2001 gathering. Myers said that neither
Partner B, Sansonetti, nor any other H&H attorney was in attendance at this event. He did not know if
anyone from either Peabody or Kennecott attended. His address and the ensuing question and answer
period lasted approximately one hour. Myers said that both Elliott and the DOI Ethics office approved his
attendance at this event. He noted that if the Ethics Office did not think it was appropriate for him to
attend this event, it was their duty to inform him not to attend.



                                                    54
                                                                        Case Number: PI-NM-03-0309-I

Ethics Advice

During the course of this investigation, we came across numerous occasions where Myers appropriately
sought and subsequently followed ethical advice from either SOL attorneys or from the Department’s
Ethics Office. Usually his ethical inquiries involved issues where the Solicitor’s Office was being asked
for legal advice by its client bureaus. Several others involved the Solicitor’s receipt of small gifts
received at professional gatherings. In those cases, we found documentary evidence that he either paid for
the gifts personally or had them returned to the event’s hosts.

SUBJECT

William G. Myers, III
Former Solicitor
U.S. Department of the Interior
1849 C Street, NW
Washington, DC 20240

STATUS

William G. Myers, III, resigned his position as DOI Solicitor effective October 10, 2003.

DISPOSITION

We have reviewed the facts of this investigation with the Public Integrity Section of the Criminal
Division, U.S. Department of Justice, which concurred with our determination to refer this matter back to
OGE for a determination of any potential ethics violations. The results of this investigation are therefore
being referred to OGE for its review and determination.




                                                    55
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                 Appendix 1
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.

                                                      Appendix 2




                                                 57
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                                                         Appendix 3
                                                   ACRONYMS

                              ABA                American Bar Association
                              ACGA               Arizona Cattle Growers’ Association
                              AFBF               American Farm Bureau Federation
                              BLM                Bureau of Land Management
                              BMCC               Boise Metro Chamber of Commerce
                              CCA                California Cattlemen’s Association
                              CFBF               California Farm Bureau Federation
                              CWA                Clean Water Act
                              DOI                Department of the Interior
                              DOJ                Department of Justice
                              EOG                EOG Resources, Inc.
                              ESA                Endangered Species Act
                              FOE                Friends of the Earth
                              FWS                U.S. Fish and Wildlife Service
                              GCT                Grand Canyon Trust
                              H&H                Holland & Hart, LLC
                              ICA                Idaho Cattle Association
                              IEF                Idaho Environmental Forum
                              MMS                Minerals Management Service
                              NCA                Nevada Cattlemen’s Association
                              NCBA               National Cattlemen’s Beef Association
                              NMA                National Mining Association
                              OGE                Office of Government Ethics
                              OIG                Office of Inspector General
                              PEER               Public Employees for Environmental Responsibility
                              PLC                Public Lands Council
                              PMB                Policy, Management and Budget
                              SOL                Office of the Solicitor
                              WSGA               Wyoming Stock Growers Association




                                                       58
Information has been redacted pursuant to FOIA
exemptions 6 & 7C.
                                                      Appendix 4




                                                 59
